<html>
<title> - TRANSITION ASSISTANCE PROGRAM AND VETSUCCESS ON CAMPUS PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
     TRANSITION ASSISTANCE PROGRAM AND VETSUCCESS ON CAMPUS PROGRAM

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 2, 2011

                               __________

                           Serial No. 112-15

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
67-190                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="80e7f0efc0e3f5f3f4e8e5ecf0aee3efedae">[email&#160;protected]</a>  

                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
Vacancy
Vacancy

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                 MARLIN A. STUTZMAN, Indiana, Chairman

GUS M. BILIRAKIS, Florida            BRUCE L. BRALEY, Iowa, Ranking
BILL JOHNSON, Ohio                   LINDA T. SANCHEZ, California
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
JEFF DENHAM, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                              June 2, 2011

                                                                   Page

Transition Assistance Program and VetSuccess on Campus Program...     1

                           OPENING STATEMENTS

Chairman Marlin A. Stutzman......................................     1
    Prepared statement of Chairman Stutzman......................    31
Hon. Bruce L. Braley, Ranking Republican Member..................     2
    Prepared statement of Congressman Braley.....................    31

                               WITNESSES

U.S. Department of Defense:

  Brigadier General Robert F. Hedelund, Director, Marine and 
    Family 
    Programs, United States Marine Corps.........................    16
      Prepared statement of General Hedelund.....................    39
  Philip A. Burdette, Principal Director, Office of Wounded 
    Warrior Care and Transition Policy...........................    19
      Prepared statement of Mr. Burdette.........................    44
U.S. Department of Veterans Affairs, Thomas J. Pamperin, Deputy 
  Under Secretary for Disability Assistance, Veterans Benefits 
  Administration.................................................    17
    Prepared statement of Mr. Pamperin...........................    42
U.S. Department of Labor, Hon. Raymond M. Jefferson, Assistant 
  Secretary, Veterans' Employment and Training Service...........    21
    Prepared statement of Mr. Jefferson..........................    48

                                 ______

American Veterans (AMVETS), Christina M. Roof, National Acting 
  Legislative Director...........................................     3
    Prepared statement of Ms. Roof...............................    32
Iraq and Afghanistan Veterans of America, Marco Reininger, 
  Legislative 
  Fellow.........................................................     5
    Prepared statement of Mr. Reininger..........................    37

                       SUBMISSION FOR THE RECORD

Student Veterans of America, Michael Dakduk, Executive Director..    52

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:

  Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
    on Economic Opportunity, Committee on Veterans' Affairs, to 
    Christina M. Roof, National Acting Legislative Director, 
    AMVETS, letter dated June 2, 2011, and AMVETS responses......    54
  Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
    on Economic Opportunity, Committee on Veterans' Affairs, to 
    Brigadier General Robert F. Hedelund, Director, Marine and 
    Family Programs, United States Marine Corps, U.S. Department 
    of Defense, letter dated June 2, 2011, and USMC responses....    55
  Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
    on Economic Opportunity, Committee on Veterans' Affairs, to 
    Thomas Pamperin, Deputy Under Secretary for Disability 
    Assistance, Veterans Benefits Administration, U.S. Department 
    of Veterans Affairs, letter dated June 2, 2011, and VA 
    responses....................................................    56
Post-Hearing Questions and Responses for the Record--Continued

  Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
    on Economic Opportunity, Committee on Veterans' Affairs, to 
    Philip A. Burdette, Principal Director, Office of Secretary 
    of Defense, Office of Wounded Warrior Care and Transition 
    Policy, U.S. Department of Defense, letter dated June 2, 
    2011, and DoD responses......................................    58
  Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
    on Economic Opportunity, Committee on Veterans' Affairs, to 
    Hon. Raymond M. Jefferson, Assistant Secretary, Veterans' 
    Employment and Training Service, U.S. Department of Labor, 
    and DOL's responses..........................................    60


     TRANSITION ASSISTANCE PROGRAM AND VETSUCCESS ON CAMPUS PROGRAM

                              ----------                              


                         THURSDAY, JUNE 2, 2011

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:07 a.m., in 
Room 334, Cannon House Office Building, Hon. Marlin A. Stutzman 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Stutzman, Bilirakis, Johnson, and 
Braley.

             OPENING STATEMENT OF CHAIRMAN STUTZMAN

    Mr. Stutzman. Good morning. It is good to see everybody 
here this morning. Beautiful, warm, DC day.
    The topic of this morning's hearing is the Transition 
Assistance Program, TAP, and VetSuccess on Campus Programs. TAP 
is a program that is supposed to help discharging veterans 
transition from the military into civilian careers. The U.S. 
Department of Veterans Affairs (VA) also has a portion of TAP 
where they educate the servicemembers on the multitude of 
services that are available to them once they become veterans.
    My staff recently completed visits to four TAP sites in 
Florida, Georgia, North Carolina, and South Carolina. And I 
believe Mr. Braley's staff has just visited several VetSuccess 
sites on campuses out west as well.
    I am going to yield to the distinguished Ranking Member in 
a moment to review his staff's visit, but I believe it is fair 
to say that the TAP site visits resulted in a mixed bag of 
observations.
    On the plus side, staff observed that, with one minor 
exception, nearly all the instructors' presentations were very 
highly professional. The instructors had a level of energy and 
instructional techniques that were a pleasure to watch and the 
staff was encouraged by their enthusiasm and professionalism.
    Unfortunately, the staff could not say the same about 
facilities, class sizes, and materials. For example, at Camp 
Lejeune, there were 165 Marines in the class being held in a 
gym.
    While I know Assistant Secretary Jefferson is working hard 
to renovate TAP, and I congratulate him for his efforts, it 
appears that an insufficient number of instructors appears to 
be driving the class size at Lejeune. And that, I am sure 
Secretary Jefferson would agree, is not acceptable.
    Additionally, the U.S. Department of Labor (DOL) is not 
alone. Their TAP partners, the U.S. Department of Defense 
(DoD), VA, and the State workforce agencies, need to take a 
hard look at the total quality of TAP. Across the TAP sites, 
hand-out materials were not standardized, sometimes out of 
date, or just not available.
    In one instance, the materials failed to contain any 
information on the current Post-9/11 GI Bill, which became law 
in 2009. In at least one class, the VA instructor admitted he 
did not know much about some of the programs.
    For a program that has been in operation for nearly 20 
years, those discrepancies are unacceptable and we cannot 
ignore today's shortcomings. So I look forward to hearing from 
today's witnesses.
    And I will yield to the gentleman from Iowa's first 
district, Mr. Braley.
    [The prepared statement of Chairman Stutzman appears on p. 
31.]

           OPENING STATEMENT OF HON. BRUCE L. BRALEY

    Mr. Braley. Well, thank you, Mr. Chairman, and thank you 
for holding this important hearing.
    I was delayed getting here because I was meeting with 
representatives from DoD about important educational assistance 
programs to children of military families.
    And I think it is part of that broader continuum of our 
obligation to provide education and training to people who 
serve this country with honor and distinction and making sure 
that we are living up to our commitment to them that they gave 
to us when they signed up for this job.
    Many of our brave servicemen and women in this country are 
returning in need of health care, employment, housing, 
education, and other services. Like veterans all over the 
country, they deserve our best efforts in providing the 
resources to ensure a seamless transition from military service 
to civilian life.
    This Subcommittee has explored various options to 
accommodate servicemembers and encourage them, as well as their 
spouses, to attend the Transition Assistance Program. I think 
that is a very important point often lost on American citizens.
    This is a team effort and spouses are fully committed to 
being a support system along with their families to the 
actively deployed member of the military. And we have an 
obligation to give them opportunities for the sacrifice they 
have made.
    One of the things that we are looking at in terms of 
proposed changes is expanding evening classes and adding online 
resources to accommodate servicemembers' and their spouses' 
working schedules, which is a very real reality.
    Others have suggested making the program mandatory for 
separating servicemembers and expanding the existing Montgomery 
GI Bill benefits.
    I was happy to learn that the three responsible departments 
that make TAP possible, DoD, VA, and Department of Labor, were 
also aware of the criticism surrounding TAP and they have been 
working to modernize this important workshop.
    Today we will reexamine TAP and the progress that has been 
made by the departments. I hope we also have the opportunity to 
learn how the program is assisting our veterans in a seamless 
transition into employment and their communities.
    As many of you know, TAP was established to meet the needs 
of separating servicemembers during the period of readjustment 
into civilian life. The program offers job search assistance 
and related services such as workshops and resume writing, the 
interview process, labor market overviews, personal appraisal, 
and VA benefits. The program seeks to provide veterans with the 
skills and services needed to make that transition into the 
workforce.
    We also know that the VetSuccess on Campus Program plays a 
similar role to TAP. It helps individuals as they transition 
from being servicemembers to students and that transition is 
critical to help student veterans succeed in school and feel 
welcome and accepted in campuses across the country.
    The age difference between a non-veteran and a veteran in a 
classroom can vary and might make the veteran feel as if they 
cannot relate or be intimidating at times.
    VetSuccess on Campus helps veterans network with other 
veterans, but most importantly it can ease the veteran's 
transition by helping them apply for education benefits.
    This hearing today will inform us of all the initiatives 
being implemented to help servicemembers and veterans succeed, 
so I want to thank you again for holding the hearing and look 
forward to the testimony of our witnesses. And I yield back.
    [The prepared statement of Congressman Braley appears on p. 
31.]
    Mr. Stutzman. Okay. Thank you.
    At this time, we are going to welcome our first panel to 
the table. And our first panel consists of Mr. Marco Reininger, 
Legislative Fellow for the Iraq and Afghanistan Veterans of 
America (IAVA), and Ms. Christina Roof, National Acting 
Legislative Director for AMVETS.
    You are welcome to the table at this time.
    And, Ms. Roof, I think we will start with you and we will 
recognize you for 5 minutes. Thanks for coming today and I am 
looking forward to your testimony as well as your input.

 STATEMENTS OF CHRISTINA M. ROOF, NATIONAL ACTING LEGISLATIVE 
  DIRECTOR, AMERICAN VETERANS (AMVETS); AND MARCO REININGER, 
  LEGISLATIVE FELLOW, IRAQ AND AFGHANISTAN VETERANS OF AMERICA

                 STATEMENT OF CHRISTINA M. ROOF

    Ms. Roof. Chairman Stutzman, Ranking Member Braley, and 
distinguished Members of the Subcommittee, on behalf of AMVETS, 
I would like to extend our gratitude for being given the 
opportunity to share with you our views and recommendations 
regarding the Transition Assistance Program and VetSuccess on 
Campus.
    You have my complete statement for the record, so today I 
would like to focus on TAP.
    While AMVETS is aware of the recent efforts to improve TAP, 
we still strongly believe the overall program to be falling 
short of its intended purposes.
    TAP classes are often the only opportunity a servicemember 
or qualifying spouse will have to receive the critical 
information vital to sustaining their quality of life after the 
military.
    After spending years becoming a part of a respected 
military culture, servicemembers who leave the military face a 
new unknown culture when they step into a civilian role or 
corporate career. This transition is often complicated by 
visible and invisible injuries a servicemember sustained while 
serving their country.
    AMVETS ardently believes that as the faces and needs of 
today's transitioning servicemembers and veterans change, it is 
critical for DoD, VA, and DOL to be ready and willing to adapt 
their programs to better meet these needs.
    AMVETS has also noticed what appears to be a lack of 
confidence in the thoroughness and success of TAP among the 
individual branches.
    For example, the U.S. Marine Corps has successfully adapted 
and utilized their updated version of TAP for some time now. 
The Marine Corps mandates that every transitioning Marine 
participate in TAP and the Marine Corps also has a higher rate 
of eligible spouse participation in TAP.
    Often the U.S. Army utilizes Army Community Service centers 
to provide additional, and sometimes duplicate, TAP services to 
their transitioning wounded warriors.
    While AMVETS applauds the individual branches for stepping 
up to fill the gaps of services and information that are 
supposed to be covered in TAP, we have to ask if taking the 
successful practices and programs from each branch and 
combining them into one, uniform updated TAP would not be a 
better way of ensuring successful transition across every 
branch of the United States military.
    We are all aware of the fact that duplication of efforts 
and funding of multiple programs with large overlap is not the 
best way to meet the needs of today's transitioning war 
fighters or their families.
    AMVETS would like to offer the following recommendations on 
how we believe TAP can be strengthened.
    One, AMVETS strongly recommends TAP be a mandatory program 
in which all transitioning servicemembers are required to 
attend before they are released from DoD.
    Two, DoD, VA, and DOL must design and implement a stronger 
Disabled Transition Assistance Program (DTAP) for wounded 
servicemembers who are hospitalized or who are receiving any 
type of medical rehabilitation during their military service 
discharge. We too often see the entire focus put on the 
servicemember's physical recovery while overlooking preparation 
for life outside of the service.
    Third, DoD, VA, and DOL must also redesign and build upon 
the programs available to active-duty National Guard and 
Reserve members. As the current conflicts have shown us, 
members of the Guard and Reserve are just as likely to be 
deployed into combat zones. This means these men and women are 
serving side-by-side their active-duty colleagues and are 
serving just as long. TAP offered to these men and women must 
be equal to that of their active-duty counterparts.
    Fourth, AMVETS strongly recommends the inclusion or 
involvement of a certified veteran service organization's 
service officer in a TAP class or at a minimum as an outside 
DoD, VA, and DOL referral servicemembers can receive by name.
    Finally, AMVETS believes there needs to be immediate and 
intense focus and education on the translation of military 
experience to a civilian skill set and resume. This should also 
include guidance on what fields of employment to look for in 
the private sector.
    A 2011 national survey of private sector businesses clearly 
illustrated the disconnect and lack of understanding between 
what someone did in the military compared to that of what the 
private sector job requisites are.
    Chairman Stutzman and distinguished Members of the 
Subcommittee, AMVETS again would like to thank you for inviting 
us to share with you our opinions and recommendations on these 
very important issues.
    This concludes my testimony and I stand ready to answer any 
questions you may have for me. Thank you.
    [The prepared statement of Ms. Roof appears on p. 32.]
    Mr. Stutzman. Thank you.
    Mr. Reininger, is that how you pronounce it? I want to make 
sure I pronounce it.
    Mr. Reininger. Reininger.
    Mr. Stutzman. Reininger. Okay. All right. Sorry about that. 
Go ahead. You have 5 minutes.

                  STATEMENT OF MARCO REININGER

    Mr. Reininger. Chairman Stutzman, Ranking Member Braley, 
and distinguished Members of the Subcommittee, I want to thank 
you for the opportunity to testify before you today on behalf 
of the more than 200,000 veterans and supporters of Iraq and 
Afghanistan Veterans of America and the many veterans who are 
currently unemployed and looking for work.
    My name is Marco Reininger. I am an Army non-commissioned 
officer (NCO) and veteran of the war in Afghanistan. I 
currently study political science at Columbia University on the 
GI Bill and serve as a Legislative Fellow for IAVA.
    Today I am not expressing the views of the U.S. Army, but 
my own and those of IAVA.
    Mr. Chairman, unemployment is a major issue facing our 
newest generation of veterans. Over 200,000 veterans of Iraq 
and Afghanistan are seeking employment. Not only is this number 
unacceptably high, but it also represents a tremendous waste of 
resources.
    The members of our armed services are some of the best 
trained, most disciplined, and most ambitious men and women 
this country has to offer. Not equipping them with the tools 
they need to transition into the civilian workforce is simply 
bad economics.
    Hundreds of thousands and often millions of taxpayer 
dollars are spent on training each servicemember and every one 
that cannot find employment is a missed opportunity.
    After two decades without significant changes to the 
Transition Assistance Program, it is time to take a serious 
look at overhauling it.
    IAVA member Nick Colgin is one vet who would have 
benefitted from improved TAP classes. Nick was a combat medic 
in the Army, but could not find a job in the civilian world. 
Nick went through the TAP Program, but was being treated for 
traumatic brain injury (TBI) at the same time, so the classes 
did not suit his needs and were not helpful.
    On March 3rd, 2011, during his testimony before the Senate 
Committee on Veterans' Affairs, Assistant Secretary Ray 
Jefferson put forward excellent recommendations to overhaul TAP 
and turn it into a more effective and relevant program.
    IAVA supports his recommended improvements in addition to 
several other crucial items. TAP needs to be a program that 
addresses each servicemember's unique level of experience, 
education, career of choice, and readiness to enter the 
civilian job market.
    Having a lance corporal medic and an armor lieutenant 
colonel attend the same course as is currently the case is 
inefficient and a tremendous waste of opportunity.
    The goal of TAP should be to ask the servicemember what are 
your employment or entrepreneurial goals and then provide a 
detailed plan on how to achieve them.
    We support DOL Veterans' Employment and Training Service's 
(VETS') recommendations to update traditional TAP elements, 
implement e-learning modules, create an online TAP platform, 
transition entirely to contracted instructors, and provide e-
mail and phone support for transitioning servicemembers.
    In addition to the Assistant Secretary's recommendations to 
measure the program's success, IAVA recommends that an outside 
organization with expertise in analyzing performance metrics be 
contracted to do so and be contracted to conduct a full audit 
of the program every 3 years to ensure that the program remains 
efficient and relevant.
    We need to build for the future and ensure that TAP is set 
up to serve many generations of servicemembers to come.
    Lastly, the program will not succeed if servicemembers do 
not attend. According to a Bureau of Labor Statistics survey of 
over 600,000 veterans, 45 percent said that they never attended 
TAP when separating from the military.
    Therefore, we recommend for the program to become mandatory 
for all transitioning servicemembers, be expanded in length, 
and the course be given sufficiently early before the 
servicemember's separation date.
    Mr. Chairman, one of the most valuable steps a veteran can 
take to be successful in the job market is to earn a college 
degree. The Post-9/11 GI Bill has already opened the doors to 
success for hundreds of thousands of veterans across the 
country.
    Along with this important new veteran's benefit come 
challenges to the VA and the educational institutions. To 
mitigate those challenges, VetSuccess on Campus, the VA program 
that places VA personnel on college campuses, should play a 
crucial role in ensuring that student veterans receive their 
benefits on time.
    IAVA recommends that the number of vocational and peer-to-
peer counselors be increased and expanded to every campus that 
hosts a significant amount of student veterans.
    Currently certifying officials are not trained to a 
specific standard, they are not held accountable, and are often 
overworked with other duties. And in those cases, the student 
veteran always loses.
    This is a problem because correct GI Bill certification is 
crucial to ensuring the veteran receives his or her living 
stipend. Especially for student veterans with families, this 
stipend is financial life support that cannot be tampered with.
    Dedicated on campus VA counselors are important for student 
veterans and should be present at every campus in America.
    Mr. Chairman, the men and women that served our country in 
uniform are a tremendous resource of expertise, technical 
skill, and they have the right attitude for the workplace.
    In a time where our Nation faces economic turbulence and 
high unemployment, we simply cannot afford to leave this 
resource untapped. We must ensure our veterans are hired and we 
hope to be a resource to you in this endeavor.
    Mr. Chairman, this concludes my testimony and I am looking 
forward to answer any questions you or the Members of the 
Subcommittee may have. Thank you for the opportunity to speak 
before you today.
    [The prepared statement of Mr. Reininger appears on p. 37.]
    Mr. Stutzman. Thank you, Mr. Reininger. And first of all, I 
would like to just thank you for your service to our country 
and for what you have done and what you will do.
    I will start the questions. I do have a couple of questions 
for both of you. And you mentioned the statistic of 45 percent 
of servicemembers attend TAP. That is for all branches.
    And am I correct that the Marines do require--it is 
mandatory for their servicemembers to attend TAP before they 
are discharged and do we know if their percentage is any higher 
than the other branches?
    Ms. Roof. When I spoke with Marine Corps officials last 
week, I was told that it is mandatory that their Marines 
complete the TAP Program. I was also told there were some 
exceptions, of course, when there was, you know, life critical 
injuries involved and so on. But I was told last week that it 
is mandatory that all their Marines complete TAP before their 
service discharge.
    Mr. Stutzman. So that is with no exceptions? I mean, every 
Marine coming out has completed TAP or----
    Ms. Roof. Again, I can only go on what they told me which 
was, you know, it was mandatory, which I think is a great idea 
and should be across the board. I cannot speak again to each 
individual case, but it seems like they are enforcing it.
    Mr. Stutzman. So would the 45 percent number have Marines 
included in that percentage or do we not know more of the 
demographics of that poll or that study?
    Ms. Roof. I will let my colleague. I think that was his 
number.
    Mr. Stutzman. Yes.
    Mr. Reininger. Sir, if I may, I am not 100 percent sure 
whether or not this number includes the Marine Corps, but I 
believe that making it mandatory DoD-wide would be the right 
solution here.
    That same survey indicated that many veterans did not 
attend the TAP Program or TAP courses that were offered because 
it had a reputation of being redundant, not really useful for 
making a successful transition. And in some cases, even 
commanding officers would not let them go. Again, this is what 
the survey indicated.
    So mandating it DoD-wide for all service branches would be 
the right answer here, sir. And, of course, along with that 
comes having to overhaul the program so that it actually works 
and makes sense for people to attend.
    Mr. Stutzman. Mr. Reininger, I would like to ask you, what 
was your experience like? Plenty of information given to you? 
You were fully aware of TAP and the scheduling? Can you share a 
little bit about your experience with it?
    Mr. Reininger. Certainly, Mr. Chairman.
    As a Guard member, I came off active duty twice. I did not 
attend the TAP Program. It was not offered for us at the time.
    Mr. Stutzman. Okay.
    Mr. Reininger. So what we went through was I guess a 
similar concept, but it was only a few hours and it was 
essentially a briefing on what benefits are available, what 
suicide hotline to call, and basically handing out paperwork to 
register with the VA.
    So it was certainly insufficient for preparing someone to 
go out, hit the job market, apply, and go to interviews. I 
already knew that I was going to go to school, so I did not pay 
too much attention. But I can tell you, sir, that in that 
respect, it was insufficient.
    Mr. Stutzman. If we did adopt a policy that mandated all of 
those to attend TAP, all servicemembers, any ideas how we--how 
do we enforce it? How do we make sure--is there a penalty? How 
do we get folks to attend a TAP meeting? And I am not sure what 
the Marines do I guess entirely, so maybe they already have a 
model that is working.
    Ms. Roof. Well, I think the first step is you make people 
want to go. You make the program worth their time and you 
reschedule when they have the classes.
    If I can share just a little bit of a personal, my younger 
brother returned from Afghanistan about a year and a half ago 
and he was on base for about 2 weeks. And they said, you know, 
okay, your 10 years is up. We are going to go ahead and 
transition you out. Here is a class. You are going to do it, 
the same day that the movers are coming to your house, so make 
sure your wife is there.
    And he told me, he said he did not remember two words those 
people said to him. He was thinking about what the movers are 
doing with their stuff, if his wife was okay, and that he only 
had 3 days until he got to go home.
    So I think, again, readjusting the program so people want 
to go, so you do not have to make them go, as well as looking 
at when the classes are held is number one.
    Two, within DoD, I do not think you will have a lot of 
problem if someone's commanding officer (CO) tells them to go 
to the class. I am pretty sure they will go if the COs are held 
accountable to making sure everyone goes. But, again, that 
might be a good question for the Marine Corps.
    Mr. Stutzman. I mean, with only 3 days left and, like you 
said, they have a lot of other things on their mind, what would 
make them want to go?
    Ms. Roof. Well, again, my brother had told me, he said, 
again, the timing was horrible. He had only been back from 
deployment for a couple weeks. So he said, you know, maybe if 
we would have done this a couple months ago when I was not 
thinking about movers.
    And he said they kind of talked--and, again, I am not 
saying this is for every class, just the class he was in--they 
kind of talked at him, at them instead of to them if that makes 
sense. And there was also some misinformation given regarding 
VA benefits. So I am hoping that was just a one-time incident 
for the class he was in.
    Mr. Stutzman. Sure. Well, any information like that is 
helpful. We are never going to have a perfect system, but we 
obviously want to make it as beneficial and get the value for 
our servicemembers coming out of the programs.
    Ms. Roof. And if I may, you said something about how you 
were given a couple hours. That has to be fixed. That has to be 
changed. The members of the Guard and Reserve are doing the 
exact same thing as their active-duty colleagues. They deserve 
the exact same benefits and opportunities for transition.
    Mr. Reininger. Mr. Chairman, if I may also, to answer your 
first question, and I agree with my colleague here, as a 
soldier myself, we are used to executing orders. So if somebody 
tells, you know, the servicemember, hey, soldier Marine, you 
are attending the TAP course, move out, roger, that is it.
    So if it were mandated and, you know, COs would enforce it, 
then I do not think there would be an issue with attendance.
    Now, in terms of getting servicemembers to want to go, I 
agree also, the same survey that I cited earlier indicated that 
many servicemembers would prefer for the TAP Program to be 
offered about 6 months before their separation date so that 
they can go ahead and look at the transition plan and really 
start to learn the skills they need and adapt and implement 
those actions that they need to be successful out there.
    And I think I am looking at a statistic here right now and 
this is Bureau of Labor Statistics' first quarter 2011. It 
indicates here that in the age group 18 to 24, both female and 
male were looking at 29.8 percent unemployment among Operation 
Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF) vets.
    So if you tell folks, listen up, if you go out there, there 
is a 30 percent chance you are going to be unemployed, then I 
think people would start listening because a lot of folks have 
families to support. And we are used to working and we are used 
to working hard. So, you know, having a program that I am told 
will work and I am told to attend, I think, would do the job.
    And, again, it is all about making it relevant, bringing it 
to the 21st Century and not teaching things that were current 
20 years ago. I mean, the world has changed. We are talking 
about cutting-edge technology in place. We are talking about 
new ways of human resources department hiring people, what 
skills are needed.
    So if servicemembers are really prepared to go out there 
and educate employers to the value they bring to the workforce, 
then I think that would do the trick because, as we know, many 
employers out there do not know how to translate military 
skills into civilian skills. They do not know how to read a 
military resume. And, of course, working on establishing these 
best practices, but the separating servicemember cannot rely on 
that.
    So if the TAP Program goes ahead and teaches me how to walk 
into an interview, sell myself, and really educate that 
employer, then I think we have figured out how to make it work.
    Mr. Stutzman. Okay. Thank you.
    Mr. Braley.
    Mr. Braley. Let me ask you this basic question. Isn't it 
true that the Department of Defense could make these programs 
mandatory across the board right now without any further action 
by Congress if they wanted to?
    That was a yes from both of you?
    Mr. Reininger. Yes, sir. Absolutely. The Executive Branch 
could order this to be mandatory and that would most likely be 
the end of it as far as I understand the process.
    Mr. Braley. And I really appreciated both of your comments 
because I think it is true, you need to have a clear direction 
from a commanding officer to make mandatory actually mean 
mandatory, but you also have to provide a program people think 
has value to promote the idea that it is a worthwhile thing for 
people to pay attention to while they are attending it.
    And one of the things that I think would be important is 
making it part of an officer's evaluation form if this indeed 
is a mandatory program, looking at the attendance and making 
sure that it is, in fact, mandatory because one of the things 
we know is that when people have an opportunity to attend 
meaningful programs and feel they are getting something of 
value for it, they will share that with their peers.
    So rather than being one of those you just have to check 
off as you are being demobilized to get home, it is something 
you look forward to as helping you achieve a goal that is going 
to benefit you over the long term.
    And, Ms. Roof, I was really impressed with your comment 
about the importance of identifying the need to treat people 
with invisible injuries as a subgroup of people who are going 
through the TAP Program.
    I just attended a welcome home in Dubuque, Iowa for a young 
Marine who lost both of his legs above the knee, very serious 
wounds, in Afghanistan. When he is traveling in his home 
community, people have a very clear understanding of the nature 
and extent of his injuries.
    But we know many returning veterans who have the other 
signature wounds of these wars including traumatic brain 
injuries and post-traumatic stress disorder. Because they are 
invisible, they may be in a job interview or on a college 
campus and the people they are interacting with have no idea of 
the trauma that they have gone through and the needs they have 
that are different than the other population.
    And my father came home from Iwo Jima with post-traumatic 
stress disorder, went through two severe bouts of depression, 
so this is something that is very personal to me.
    And one of the things that we know is that it is also 
important for veterans to be able to open up and share what 
they are going through so that their employers and their 
college peers are able to relate to them better.
    So what can we do to address this subgroup of returning 
warriors and prepare them for these TAP programs?
    Mr. Reininger. Sir, and thank you very much for making this 
very important point. As you indicated, these injuries are 
invisible. However, they are not untreatable. And with medicine 
advancing, we have seen pretty good success in treating post-
traumatic stress disorder (PTSD), treating mild traumatic brain 
injury (MTBI), TBI.
    So I think one key component, and, of course, this plays 
into educating employers, but also into educating folks that 
are applying for jobs, is that just because you have PTSD, just 
because you were diagnosed with this illness does not mean that 
you do not bring a lot to the workforce. All it means is that 
you have a disease or an injury rather like many other people 
and that it needs to be treated.
    So, again, I think it goes into educating employers. It 
goes into educating the individual servicemembers to make 
hiring professionals aware of this. And so I think that is very 
important.
    Ms. Roof. And I agree. And thank you, by the way. When it 
comes down to it, TBI, for example, invisible wound, but 
definitely treatable.
    So when looking at the DTAP Program and its redesign, 
people that have suffered--there are different degrees of TBI 
obviously, so I am not going to speak across the board, but 
let's talk, you know, mild TBI, they might cognitively 
function, you know, a little bit differently, but they are 
still absolutely the same.
    So in that transition course, adjust and adapt that course 
to meet the needs of those individuals. If it is maybe adding 1 
day to the program or having shorter days and intervals, 
however it is going to meet their needs, the best because, 
again, these individuals have a tremendous amount to add to the 
private sector. It is just we have to work with them to figure 
out how to bring their best qualities to bring back to the 
private sector.
    Mr. Braley. Well, I think one of the concerns a lot of 
employers have is they do not understand the underlying nature 
of the disease and how it impacts the employability of that 
particular employee.
    And that is why I think a lot of people have a tendency to 
not to want to bring that up when in reality making employers 
aware of that on the front end and talking about the coping 
mechanisms that can be put in place to help that employee 
function and be effective in the workplace.
    You know, when you were talking, one of the things you 
mentioned was the emphasis on physical rehabilitation and not 
vocational rehabilitation. And when you look at physical 
rehabilitation, they focus on things like activities of daily 
living which are every-day benchmarks that you can identify and 
measure on how people are able to respond to a physical injury.
    We almost need activities of employment or vocational 
living that can serve as a benchmark on rehabilitation for 
people looking for work in the workplace. And I think that both 
of you have offered some great ideas on what we should be 
looking at in terms of providing greater opportunities to make 
this TAP Program work effectively. So thank you very much.
    I yield back.
    Mr. Stutzman. Okay. Thank you, Mr. Braley.
    Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman, and I thank the panel 
for being here with us this morning to talk about these very, 
very important issues.
    Ms. Roof, thank you for providing several suggestions for 
ways to improve TAP.
    What, if any, are some of the components of TAP that you 
believe are working well and benefitting veterans better than 
others or are there any?
    Ms. Roof. Well, yes. I mean, there are parts that are 
working. But, again, I think that is going to vary from each 
individual location and/or class because as the Chairman was 
saying, you know, his staff saw some wonderful enthusiastic 
presenters, which is very important. You know, you have to keep 
people awake, have to keep people wanting to pay attention.
    But, then again, you hear stuff, you know, such as what 
happened to my brother in that kind of class or what the 
Chairman's staff reported back to him that there was 
misinformation given.
    So I really think that is going to vary and that is 
something that should be looked at when looking at maybe 
redesigning or updating the program.
    Mr. Johnson. Okay. Well, thank you.
    You also mentioned the early success of the VetSuccess on 
Campus Program. What can we in Congress do to enable this 
program to continue being a successful tool for those veterans 
that are seeking higher education?
    Ms. Roof. Well, first and foremost, grant the Secretary and 
grant VA the authority to expand the program and then make sure 
that they have the proper number of personnel and funds to grow 
the program and keep the oversight that it has now because it 
is working now because people are watching every step.
    If you just start expanding this rapidly and you lose 
oversight, I think there could be problems. But if you keep it 
how it is working now and keep the oversight level you have 
now, I think it stands to be an amazing tool.
    Mr. Johnson. You know, I do not know if these questions 
already have been asked. One of the earliest experiences we had 
here after coming to Congress in January was to visit some of 
our wounded troops over at Walter Reed.
    I met one who is a quad amputee, and very enthusiastic 
young man given his situation, sitting there with an iPad and a 
medical tape around his arm holding a stylus that he was using 
this iPad with. And when I asked him what he was doing, he 
said, well, he said I cannot walk and I cannot make a living 
with my arms, so I am applying to law school. And, of course, 
everybody's chin dropped. What an attitude.
    What are we doing or do you have an opinion on whether we 
are addressing enough the need for opportunities, economic 
opportunities for those that come back? Five, 10 years ago, 
they did not survive, but now they are. We have a different 
group of veterans that now want to provide for themselves, but 
they are going to need some serious help in terms of 
educational opportunities.
    In his case, for example, going to law school is very 
difficult because, and we are still trying to figure all that 
out, under the rules that existed at that time, a quad amputee 
could not be released from a facility because it takes two 
people to take care of them.
    So how do you bring quality education to those men and 
women who come back from the battle zones much different than 
when they went and are unable to get out like that? Have you 
got an opinion, any thoughts?
    Mr. Reininger. Sir, first of all, that is a very inspiring 
story and very touching at the same time.
    I think what we should look at is, and like you said, 
quality education is going to be key especially for 
servicemembers that come back with severe physical injuries 
like the ones you described, creating programs within the VA 
that would allow for and facilitate for somebody to go ahead 
and despite these injuries attend college, attend law school 
would be ideal.
    Of course, you know, I am just sitting here and 
brainstorming, but as I mentioned earlier, one of the things we 
advocate, and this pertains to TAP, but this could be applied 
to other programs, too, is to engage an outside agency, a 
third-party agency to go ahead and really assess these programs 
and make them relevant, bring them to the 21st Century, and 
make sure that they work.
    The Department of Labor, the Department of Veterans 
Affairs, they are great at executing most of the time, but not 
always necessarily great at thinking outside the box. That is 
not necessarily part of their mission.
    So going ahead and engaging an agency or an organization, 
maybe a think tank, something like the Rand Corporation, whose 
job it is to look at and improve, that would be ideal, I think, 
and that is the motivation.
    Mr. Johnson. I am glad you said that. You know, America has 
been great since our founding at thinking outside the box. I 
think we can solve this problem if we put our minds to it.
    Thank you for your testimony.
    Mr. Stutzman. Okay. Thank you.
    Mr. Johnson. I yield back.
    Mr. Stutzman. All right. Thank you.
    Mr. Bilirakis.
    Mr. Bilirakis. Thank you. Thank you very much, Mr. 
Chairman.
    A question for Marco Reininger. You comment in your 
testimony that the members of armed services are some of the 
best trained, most disciplined, and most ambitious men and 
women this country has to offer and not equipping them with the 
tools they need to make a successful transition into the 
civilian workforce is bad economics. I completely agree with 
you, by the way.
    Do you think that proposed Department of Labor 
modifications are sufficient to educate departing 
servicemembers on how their military skill sets translate to 
civilian skill sets and will you speak to how Congress can be 
more helpful in conveying the message of the attributes former 
servicemembers bring to civilian workforces?
    Mr. Reininger. Sir, the recommendations that Assistant 
Secretary Jefferson made are outstanding. And I was thrilled to 
hear him talk about how they even applied lean six sigma to 
some of the processes to really again think outside the box and 
improve.
    I think it needs to go a little bit further in terms of, 
and I mentioned this during my oral testimony, making it 
mandatory, of course, which should be a relatively easy fix and 
then again making sure that this program remains relevant, 
remains up to date, and really serves servicemembers in the 
future regardless of who is in charge of the White House, 
regardless of who is in charge of Congress or the Department of 
Labor.
    And I think a key to making that happen is to having that 
audit occur at regular intervals to make sure that it stays 
relevant.
    Mr. Bilirakis. Thank you.
    Mr. Reininger. And, sir, again, a key component here, I 
believe, is educating employers. When I was about to deploy to 
Afghanistan, my manager went to our H.R. department and asked 
to fire me because I was gone too much for military training. 
Thank God the H.R. department knew about the Uniformed Services 
Employment and Reemployment Act (USERRA) laws, but this manager 
had no clue.
    Mr. Bilirakis. It is unfortunate.
    Mr. Reininger. So this is what we are looking at out there 
and these are issues that need to be tackled. And I think 
implementing best practices, educating H.R. departments is a 
key component of fixing this problem, sir.
    Mr. Bilirakis. Thank you very much.
    And I would like to discuss this issue with you maybe in my 
office or what have you at your convenience. Okay. Thank you.
    Now, this is for the entire panel. The VetSuccess Program, 
which was piloted in Tampa, Florida, at the University of South 
Florida is certainly making it easier for veterans to utilize 
the education benefits they have earned.
    What are the major obstacles to expanding this program and 
then, secondly, what are the success rates of veterans at an 
institution where the VetSuccess Program is in place as opposed 
to those attending institutions without the program for the 
entire panel?
    Ms. Roof. To give you fully accurate information, I would 
like to ask to submit my answer for the record because I do 
have that data compared across different campuses.
    Mr. Bilirakis. Please do. And, you know, I would like a 
copy of it as well.
    Ms. Roof. Absolutely.
    Mr. Bilirakis. And probably the other Members of the panel.
    Ms. Roof. Uh-huh. Absolutely.
    [Ms. Roof subsequently provided the following information:]

          After contacting the VA VetSuccess Program office, there is 
        no data available on success rates as compared to campuses 
        without the program. In regards to expanding the program, the 
        law needs to be changed to give the Secretary the authority to 
        expand it beyond the current eight campuses. The program gets 
        rave reviews and offers a nice ``buffer'' (for lack of a better 
        term) for the transition from a very structured military life 
        to that of a very unstructured college campus environment.

    Mr. Bilirakis. Anyone else? Would you like to?
    Mr. Reininger. Sir, again, I think VetSuccess on Campus is 
a great tool because, as I mentioned earlier, a lot of these 
certifying officials wear that title as a fourth or fifth hat. 
They are already overworked.
    I have anecdotal evidence of folks that I am friends with 
who almost had to drop out of the semester because the 
certifying official just would not certify them and they were 
barred from taking the exam because of nonpayment.
    So we cannot rely on these schools to really fulfill their 
duty of serving their student veteran population. A VA employee 
on campus can ease that problem, can help with making sure the 
process goes smoothly, and make sure that the veteran gets 
their benefits on time.
    As I mentioned earlier, if you do not get your living 
stipend and you have a spouse and perhaps two children to care 
for, maybe in a high-class area like New York City where I go 
to school on the GI Bill, then that could create tremendous 
financial distress on top of the stress of going to school and 
having to prepare for exams and things of that nature.
    So by expanding the program across America, to place these 
VA counselors and peer-to-peer counselors on more campuses 
would be, I think, crucial to ensuring that the process goes 
smoothly. And, again, any support the VA can get to make sure 
that they are authorized to implement more of these VetSuccess 
on Campus centers, I think, would be very beneficial, sir.
    Mr. Bilirakis. Very good. Thank you very much. I appreciate 
it.
    Thank you for calling the hearing as well, Mr. Chairman. 
Appreciate it.
    Mr. Stutzman. Thank you.
    I just want to say thank you for your testimony. And what I 
walked away with today is really mandatory classes for 
servicemembers and timing are the two big things to make sure 
our servicemembers have the information they need before moving 
on.
    So thank you for your testimony. Looking forward to working 
with you in the future. And, again, thank you for your service 
to our country and what you all are doing for our veterans.
    All right. At this time, I will call on our second panel to 
take their seats at the witness table. With us today is Mr. Tom 
Pamperin, Deputy Under Secretary for Disability Assistance, and 
impending retiree from the Department of Veterans Affairs. I 
believe today or tomorrow is his last day.
    So congratulations----
    Mr. Pamperin. Thank you.
    Mr. Stutzman [continuing]. On your retirement. Yeah. Would 
you want to share how many years or is that personal 
information?
    Mr. Pamperin. Thirty-seven years.
    Mr. Stutzman. Thirty-seven years. Fantastic.
    Also with us today is Mr. Philip Burdette, Principal 
Director of DoD's Office of Wounded Warrior Care and Transition 
Policy; Brigadier General Robert Hedelund, Director of Marine 
and Family Programs. And General Hedelund is accompanied by Dr. 
Beth Barton, the Manager of Personal and Professional 
Development Program, Marine Corps Community Services. And 
finally, and certainly not least, we are pleased to have Mr. 
Ray Jefferson, the Assistant Secretary of Labor for Veterans' 
Employment and Training Service (VETS).
    We always enjoy having you and working with you.
    But I think we will start with General Hedelund. As the 
Marines like to say, they are the first to fight, so you are 
the first to testify today. So you are recognized for 5 
minutes.

 STATEMENTS OF BRIGADIER GENERAL ROBERT F. HEDELUND, DIRECTOR, 
 MARINE AND FAMILY PROGRAMS, UNITED STATES MARINE CORPS, U.S. 
 DEPARTMENT OF DEFENSE; ACCOMPANIED BY BETH A. BARTON, PH.D., 
MANAGER, PERSONAL AND PROFESSIONAL DEVELOPMENT PROGRAM, MARINE 
  CORPS COMMUNITY SERVICES; THOMAS J. PAMPERIN, DEPUTY UNDER 
    SECRETARY FOR DISABILITY ASSISTANCE, VETERANS BENEFITS 
     ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
     ACCOMPANIED BY RUTH A. FANNING, DIRECTOR, VOCATIONAL 
   REHABILITATION AND EMPLOYMENT SERVICE, VETERANS BENEFITS 
ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; PHILIP A. 
 BURDETTE, PRINCIPAL DIRECTOR, OFFICE OF WOUNDED WARRIOR CARE 
  AND TRANSITION POLICY, U.S. DEPARTMENT OF DEFENSE; AND HON. 
RAYMOND M. JEFFERSON, ASSISTANT SECRETARY, VETERANS' EMPLOYMENT 
         AND TRAINING SERVICE, U.S. DEPARTMENT OF LABOR

       STATEMENT OF BRIGADIER GENERAL ROBERT F. HEDELUND

    General Hedelund. Thank you, Mr. Chairman.
    Chairman Stutzman, Ranking Member Braley, and distinguished 
Members of the Subcommittee, thank you for the opportunity to 
speak to you today about the Marine Corps' Transition 
Assistance Management Program.
    In our Commandant's 2010 Planning Guidance, he directed the 
Deputy Commandant for Manpower and Reserve Affairs to review 
and retool Transition Assistance to better meet the needs of 
our separating and retiring Marines.
    Through careful review of our program, surveys of the 
parting Marines, and engagement with our partner organizations, 
we have identified that our Transition Assistance Program needs 
fundamental redesign to more effectively engage and support our 
Marines and their families.
    This requires transformation from the current one-size-
fits-all, single-event approach to a more individualized 
career-long process. Our personal and professional development 
methodology begins as recruits hit the yellow footprints or at 
accession and must continue through the Marine's career whether 
it be for 4 or 40 years.
    Transition assistance, therefore, must be mapped to this 
process to ensure that the tangible and intangible benefits 
Marines gain will contribute to their personal and professional 
goals in the Corps, as they reintegrate into the civilian 
community, or if they become members of our Reserve component.
    Our immediate priority and first phase of this work will be 
focused on the Marine's End of Active Service or EAS plus or 
minus 180 days. To that end, we are collaborating with the DOL, 
VA, and DoD to transform the traditional transition assistance 
workshops into 21st Century venues that will deliver actionable 
knowledge to our Marines.
    Our future program is still in the planning stages, but we 
have briefed our Commandant on our way ahead and actions are 
underway to establish a core curriculum, elected elements based 
on a Marine's future desires, a standardized high-quality 
product, and pre-work requirements to help streamline valuable 
classroom time.
    We are particularly excited about our envisioned elective 
courses that will support four pathways that our departing 
Marines can choose from. They include employment, career 
technical education, college and university work, and 
entrepreneurship.
    After a Marine leaves active service, we will offer reach-
back capability via a revitalized Marine For Life Program that 
some of you may be familiar with. That is key because it 
continues to support retention and recruiting goals throughout 
our country.
    Our ultimate aim is to improve transition assistance to the 
point that mandatory attendance is no longer an issue because 
Marines want to be there due to the program's high quality and 
desirability.
    During all this work, we look to partner and collaborate 
with the Office of the Secretary of Defense, the Department of 
Labor, the VA, and our sister Services for best practices.
    I look forward to answering your questions and I thank you 
very much for your time.
    [The prepared statement of General Hedelund appears on p. 
39.]
    Mr. Stutzman. Okay. Thank you.
    And, Ms. Fanning, I apologize for failing to recognize you 
as well. It is good to have you here with us today.
    And next we will go to Mr. Pamperin. We will start with 
you.

                STATEMENT OF THOMAS J. PAMPERIN

    Mr. Pamperin. Mr. Chairman, Ranking Member Braley, and 
Members of the Subcommittee, I appreciate the opportunity to 
appear before you today to discuss the VA's Transition 
Assistance Program and VetSuccess on Campus.
    My testimony will cover what we are currently doing in the 
TAP Program, our current TAP reengineering efforts, and other 
support to separating servicemembers and veterans to include 
the VetSuccess Program and our efforts in the VetSuccess on 
Campus Program.
    Ms. Ruth Fanning, Director of Vocational Rehabilitation and 
Employment Service, accompanies me.
    I would also like to introduce Mr. Curtis Coy seated behind 
me, the newly-named Deputy Under Secretary for Economic 
Opportunity.
    Public Law 101-510 created the TAP Program, which is 
executed under a memorandum of understanding among the 
Departments of Labor, Defense, Homeland Security, and VA. The 
departments work collaboratively to schedule briefings and to 
best serve servicemembers as they transition to civilian life. 
Quarterly meetings among the departments are held to oversee 
the operations of the program and to plan enhancements.
    VA's TAP briefings are provided by trained military 
services coordinators, Military Services Coordinators (MSCs), 
from the regional offices with jurisdiction over the military 
installations in the United States and Puerto Rico.
    TAP services are provided to servicemembers stationed 
outside the United States through overseas military services 
coordinators in the United Kingdom, Germany, Italy, Spain, 
Okinawa, Japan, and Korea. We also provide transition briefings 
to demobilizing Reserve and National Guard members.
    At TAP briefings, the servicemembers learn about the array 
of benefits and services available from VA. In 2010, 
approximately 207,000 active Reserve and Guard servicemembers 
and family members participated in over 5,000 transition 
briefings.
    From October 1, 2001, through March 2011, over 83,000 
servicemembers and family members participated in over 2,000 
transition briefings.
    In June 2010, VA established a TAP reengineering project to 
update and modernize the briefing and to ensure that it meets 
the current needs of servicemembers. We have revised the 
briefing, conducted training for over 200 military services 
coordinators, and will standardize the makeup of all take-away 
materials.
    In the fourth quarter, VA will launch an online TAP. We 
currently conduct regular reviews of the briefing materials and 
conference calls with MSCs. A plan to conduct site visits to 
monitor the delivery of the program beginning in 2012 has been 
established. Additionally, a survey tool is under development 
to provide customer feedback.
    I would also like to discuss VA's VetSuccess Program. The 
goal of the VetSuccess Program is to assist veterans with 
service-connected disabilities to prepare for and obtain 
suitable and sustainable employment through the provision of 
services individually tailored to each person.
    VetSuccess begins with a comprehensive evaluation of the 
veteran's needs, identification and understanding of their 
interests, aptitudes and transferrable skills.
    Next, vocational rehabilitation professionals explore a 
veteran's potential career goals in line with the labor market 
demands.
    Veterans' employment, a fundamental mission of the VR&E 
Program, relies on early intervention, smart processes, a 
productive partnerships, good rehabilitation planning, and 
retention to the point that an individual is job ready.
    In 2010, over 10,000 veterans were successfully 
rehabilitated. Fifty-one percent were hired by the private 
sector, 33 by the Federal Government, 12 percent by State and 
local governments, and 4 percent by faith-based organizations.
    I would also like to discuss our Web site, the 
Vetsuccess.gov, which has been enhanced to provide one-stop 
resources for both disabled and able-bodied veterans and family 
members to assess services during transition, campus life, job 
search, and career attainment. The program also assists 
veterans with disabilities to maximize independent living in 
their homes and communities.
    The Web site includes a job board for employers desiring to 
hire veterans, resume builders, and tools that allow veterans 
to utilize resumes already developed, a military-to-civilian 
jobs skills translator, aggregater tools for employers seeking 
certain sets of skills, and other items.
    The job board feature and VetSuccess currently connects 
over 68,000 veterans to over 1,500 employers. Veterans have 
access to the direct employer's job central career board that 
lists 4,000,000 with additional links to other popular and 
highly-populated job sites.
    The VetSuccess on Campus Program provides support to 
veterans in completing a college degree at eight campuses. Over 
4,500 veteran students have been served at these eight 
campuses. VA plans to expand VetSuccess on Campus in 2012 to 
nine additional campuses with veteran populations of 800 to 
1,200 students.
    Our objective is to significantly increase the potential 
for graduation and successful transition to a career that 
supports veterans and their families and contributes to the 
Nation's well-being.
    Mr. Chairman, we at VA are proud of our continuing role in 
the transition of servicemembers to civilian life. Thank you 
for allowing me to testify today and I would be pleased to 
respond to any questions.
    [The prepared statement of Mr. Pamperin appears on p. 42.]
    Mr. Stutzman. Okay. Thank you, Mr. Pamperin.
    Mr. Burdette is recognized for 5 minutes.

                STATEMENT OF PHILIP A. BURDETTE

    Mr. Burdette. Thank you, Mr. Chairman.
    Good morning, Chairman Stutzman, Ranking Member Braley, 
Members of the Subcommittee. Thank you for the opportunity to 
discuss the views of the Department of Defense on the 
performance of the Transition Assistance Program this morning 
with my colleagues from the Marine Corps, Department of Labor, 
and Department of Veterans Affairs.
    The Transition Assistance Program is a collaborative 
partnership between the Department of Defense, the Department 
of Veterans Affairs, and the Department of Labor, its primary 
function, its primary platform used to deliver an extensive 
array of services and benefits information to separating 
servicemembers.
    The Department also focuses on providing separating and 
retiring servicemembers useful information and assistance in 
all aspects of their transition process including preparation 
for post military employment. Together with our partners, we 
have done a good job of connecting servicemembers with 
resources, but we are by no means finished.
    The Transition Assistance Program was designed for in-
person delivery to servicemembers coming off active duty 20 
years ago, a one-size-fits-all approach that is simply not what 
is needed or desired by today's force.
    To strengthen and improve the Transition Assistance Program 
for the 21st Century, the Department and our partners recognize 
that it is in need of major enhancements and each agency is 
working to improve their component of the program through a 
number of initiatives.
    We are leveraging technology, modernizing curriculum, 
improving field staff training, and developing ways to improve 
access to information relating to a successful transition.
    By using the Internet, we are no longer bound by the 
constraints of more traditional learning environments, allowing 
us to reach more servicemembers at the same time.
    The traditional brick and mortar classrooms will remain 
available, but I am excited about moving the Transition 
Assistance Program into an online setting. We started doing 
this on March 1st of this year by offering Web-based seminars 
on important topics like building better resumes and landing a 
Federal job with networking and interviewing.
    This is just a few examples of how we are better reaching 
servicemembers worldwide and at different points in their 
transition as well as reaching those with hearing and visual 
impairments. Waiting until the end of military service to 
educate the war fighter is simply too late.
    Another major part of our use of our technology and the 
movement to an online environment is our career decision tool 
kit. The tool kit in both compact disk and online format is the 
cornerstone of transforming the Transition Assistance Program 
into a blended career transition training model. It takes 
advantage of online and digital resources, virtual classrooms, 
and social media that complement the traditional classes.
    Just this spring, we shipped over 500 kits to the southwest 
border and with the Department of Labor facilitated six 
workshops in May for members of our National Guard and Reserve 
who are transitioning from that mission back to civilian life.
    The Department of Defense, particularly our military 
services, have also significantly increased their focus on 
licensing and certification by providing such information in a 
wide range of ways and in different formats to appeal to 
individual learning styles.
    The Department also recognizes that exposure to career 
opportunities is crucial to future employment. Networking must 
take place throughout a servicemember's career and DoD is 
involved with several initiatives to encourage this, especially 
for our wounded, ill, and injured.
    Launching this spring the department's education and 
employment initiative pilot, we will match recovering 
servicemembers with career and vocational counselors who will 
help them become engaged in their future very early in their 
recovery by helping to identify skills that they have, skills 
that they need, and opportunities to utilize these skills.
    Another pilot program that the Department of Defense 
sponsors is our Operation War Fighter, which is discussed in 
detail in my written statement. The programs strives to 
demonstrate to participants that the skills they have obtained 
in the military are transferrable into civilian employment.
    To date, Operation War Fighter has placed approximately 
1,800 servicemembers in internships across more than 100 
different Federal employers.
    When I left the Marines in 2001, I thought I was pretty 
plugged in. I knew what I wanted to do and I chose not to take 
advantage of the transition resources available at the time 
from the Marines because I thought I had it all figured out.
    Unfortunately, I was not as savvy as I thought. Instead of 
walking right into one of those jobs I knew was just waiting 
for a Marine like me, I remained unemployed for 13 months. I 
still keep all the rejection letters that I received in a pile 
on my desk to remind me every day of my solemn obligation to 
today's transitioning servicemembers who face even greater 
challenges than I faced.
    In closing, I want to acknowledge that we are anticipating 
increasing numbers of transitioning servicemembers from both 
the active-duty and the Reserve component and that this is not 
a unilateral effort. Only by working together with the 
Department of Veterans Affairs, the Department of Labor, and 
the Office of Personnel Management (OPM) and the Congress can 
we ensure that our servicemembers receive the transition 
support they need.
    Mr. Chairman, on behalf of the men and women in the 
military today and their families, I thank you and the Members 
of this Subcommittee for your steadfast support and leadership 
in this important area.
    [The prepared statement of Mr. Burdette appears on p. 44.]
    Mr. Stutzman. Thank you. There is nothing like rejection to 
give you incentive, is there?
    Mr. Burdette. You bet.
    Mr. Stutzman. All right. Mr. Jefferson.

             STATEMENT OF HON. RAYMOND M. JEFFERSON

    Mr. Jefferson. All right. Chairman Stutzman, Ranking Member 
Braley, Representative Bilirakis, thank you very much for 
calling this important hearing.
    I want to first honor the contributions and cooperation of 
our partners. TAP will only become as great as it has the 
potential to be through all of us working together and that is 
what is happening.
    I also want to acknowledge the insights we heard earlier 
from Ms. Roof and Mr. Reininger.
    So here is where we started off to transform the program. I 
first asked the question who are the leading experts on TAP in 
the country and in the world and what is the best content. And 
I spent hours upon hours downloading all of these best 
practices and putting them right into the newly redesigned TAP 
Program.
    I am focusing on the implement workshop. There are four 
purposes of an implement workshop.
    One, to teach servicemembers to find job after job after 
job after job.
    Two, certainty, clarity, and what they want to do with 
their life.
    Three, readiness, readiness to succeed in a job.
    And, fourth, the ability to decrease the time it takes for 
them to get rapidly on board in the new job and to begin 
contributing.
    There are four adult learning principles which are relevant 
to the TAP implement workshop.
    The first is relevancy. It needs to be effective and just 
in time.
    The second is action learning, learning by doing.
    The third is a stretch that gets people outside their 
comfort zone.
    And the fourth is a supportive learning environment.
    So here are the six major challenges and problems that we 
have had over the years and the six solutions and improvement 
areas.
    Number one, it has been one size fits all, no 
customization, no segmentation. How are we going to solve that 
for the first time? We are solving it through pre-work. Before 
people come to TAP, we are going to assess them on their 
readiness for employment and also their interests. We will 
probably use the strong interest inventory which is the most 
widely regarded interest inventory around.
    Then we are going to segment people as to be highly ready 
for employment, moderately ready, or entry level. Then we are 
going to bring them into what I call component number two, best 
practice content with a cohort who has the same transition 
employment needs. So you start creating peer support groups 
right at the cohort level when they are in the classroom.
    What is the best practice contact in TAP? It is life and 
career planning, I left my book on my desk, mental resiliency 
training, stress reduction techniques, how to transition from 
military to a civilian work environment, networking so that if 
you have been deployed or mobilized, you do not have much of a 
network other than your family and friends, story telling, how 
to articulate your value proposition to an employer. They make 
their initial decision in the first 1 to 2 minutes and spend 
the rest of the interview trying to provide proof that they 
made the right decision. And they want you to answer two 
questions. A, you can make my problems go away, B, you really 
want to be here.
    Entrepreneurship and also peer support techniques and 
finally Federal Government employment. All this is best 
practice content. We are going to have three versions, one for 
people highly ready, moderately ready, and entry level.
    There are two things you want to look at in a career 
transition program, the message and the messenger, the content 
and the delivery system. Right now we have 186 PowerPoint 
slides, no good. We are going to experiential learning, 
learning by doing. We are going to an all contract facilitator 
force because we get the best results when we use contract 
facilitators.
    The final three components, something that has never been 
done before, I got this from international best practices, 
after TAP support. When a servicemember finishes TAP, he or she 
is going to create an individual transition plan that reflects 
their vision for their life, what they want to be, where they 
want to go, their strategy, the road map they are going to take 
to get there, and the tactics, the actions and steps they are 
going to use along the way.
    Then and after TAP support for 60 days after they finish 
TAP, they are going to be able to make a phone call or go 
online and get customized coaching to implement and pressure 
test their individual transition plan. Never been done before. 
This ensures that after we have them drinking through a fire 
hose, similar to the way I talk in these hearings, afterwards 
we are going to embed and instill what they have learned so 
they have uptake for the long term.
    Fifth major component e-learning platform. All the content 
is going to be available in an interactive dramatized format 
online. And I want to acknowledge our friends at DoD for 
letting us use the DTAP and partnership to do that.
    So this will also be available 24 hours, 7 days a week. All 
veterans, wounded warriors, spouses, Guard, Reservists will all 
have access to that. And it will also be an entry point into 
all of the entrepreneurship programs, services, and support 
that is coming out of the interagency task force on 
entrepreneurship chaired by the Small Business Administration's 
Associate Director Marie Johns.
    Finally, performance metrics. Over 2\1/2\ million people 
have gone through TAP. I do not have one performance metric to 
show for it. People say the program is going well, it is not 
well. It is all anecdotal. So I am going to get performance 
metrics and three moments in truth.
    One, when you finish the course, thumbs up or thumbs down.
    Number two, when you are applying the content because it 
may be a period of time between when you take the course and 
when you apply the contact.
    And then number three, when you get a job, how effective 
are we at helping you to assimilate into a new culture.
    In our fiscal year 2012 budget request, we are asking for 
$2 million more so that we can account for expanding and 
ensuring that we can provide TAP to all Guard and Reservists.
    This is a personal priority of me as the Assistant 
Secretary. It is one of our top five priorities as an agency.
    I look forward to your questions. And, again, I want to 
acknowledge the tremendous work that we are doing with our 
partners.
    Thank you very much.
    [The prepared statement of Mr. Jefferson appears on p. 48.]
    Mr. Stutzman. Thank you. And I like what I hear. I 
appreciate all of the information that you have given today and 
I am hopeful you are successful because I think you have a plan 
and it is well laid out. And I think you will do a lot of good 
things.
    Mr. Jefferson. Yes, sir. Our goal is to get it done by 
Veterans Day.
    Mr. Stutzman. Great. That is fantastic. Well, first 
question that leads into that, with the enhancements to TAP, do 
you expect to continue to request additional funding for future 
fiscal years beyond the $9 million requested in the 2012 budget 
or is that going to be all wrapped inside of that?
    Mr. Jefferson. Sir, you mean for consecutive years after 
2012? Let me take that for the record and confer with my team. 
I think once we get the contract facilitators on board, I would 
envision that the additional cost required will be minimal.
    But the one thing I want to say is I want to have a 
continual improvement component to the new TAP. I want to have 
a way that every year we are evaluating what we are doing and 
we are bringing in the latest best practices so 3 years from 
now, the program is not again becoming obsolete.
    So, sir, I will take that for the record. But once we get 
it stood up with those full contract facilitators on board, I 
do not envision major funding increases but want to verify that 
with my budget team back at the office.
    [The DOL subsequently provided the following information:]

          Our budget request for FY 2013 of $12 million reflects the 
        move to all contract facilitators. The statement above that 
        once the program is funded, the out years would not require 
        major increases is correct.

    Mr. Stutzman. Sure. And then you also mentioned a contract.
    Mr. Jefferson. Yes, sir.
    Mr. Stutzman. And contracting some of the work out. How is 
some of the experiences you had and then also in the TAP 
redesign, you will be utilizing more contract instructors? Can 
you touch on that just a little bit?
    Mr. Jefferson. Absolutely. So, sir, right now we have three 
communities that do TAP facilitation. I have my Federal team 
members. We have State team members, our employment 
representatives, and we also have contract facilitators.
    And you have some outstanding people in each group, but the 
questions I ask my team is who consistently gets the best 
feedback. And this is the challenge that we have. For my staff 
or for the State employment representatives, they may not do a 
TAP workshop for 3 to 6 months. Then all of a sudden, they are 
given the binder, say you are going to be doing the TAP 
workshop next month, so they are prepping it, the slides, et 
cetera. I do not want that.
    And the results demonstrate that we get the best outcomes 
with contract facilitators, people who are trained facilitators 
whose sole job is to stay tuned up on the best practices and 
all they do is TAP. So we are going to an all contract 
facilitator force and we are hoping to have that completed--I 
do not know if that will be completed this year. I am pushing 
it as fast as we can move, but that is where we are going to.
    Mr. Stutzman. I really like the assessment idea and also 
the e-learning platform.
    Mr. Jefferson. Yes, sir.
    Mr. Stutzman. I think they are both fantastic objectives.
    General Hedelund, my question is, with the Marine Corps' 
policy that requires TAP, have you seen any negative effects 
and how does the Corps enforce mandatory attendance?
    General Hedelund. Yes, sir. Thank you for that question.
    First, no, no operational impacts by requiring Marines to 
go to mandatory TAP. As I mentioned in my oral statement, our 
goal is to make this mandatory requirement almost Overtaken By 
Events (OBE) because people will figure out that this is 
something they need and want.
    That said, some of the discussion earlier from the first 
panel is relevant in that it is a bit of a leadership issue. 
Let's not forget that this event does not happen in a vacuum. 
And that is part of the issue right now with TAP is that it is 
a one-shot deal and where it falls on a Marine's timeline to 
get out, the Marine Corps sometimes is convenient, sometimes 
not so much.
    If you are a Marine on a Marine Expeditionary Unit (MEU) 
and you have a Pre-deployment Training Plan (PTP), that gets 
you to your deployment and you are gone for 7 months, then you 
may have a limited window on the backside of your deployment to 
get TAP before your End of Active Service (EAS).
    That is a challenge for the individual Marine, but it is 
the responsibility of that commander to make sure that that 
Marine has the opportunity to attend that training. So it is a 
leadership issue in that the Marine's supervisor, via the 
commanding officer, needs to ensure that that occurs.
    Now, briefly, the mandatory piece of this is important from 
our perspective for accountability and a number of other 
issues, but that is the Marine Corps way of doing it and we are 
pretty happy with the way it works. It does not guarantee that 
the Marine that is sitting there in the class is 100 percent 
attentive 100 percent of the time, but it is a step in the 
right direction.
    Mr. Stutzman. Sure. Sure. Well, and then finally, touching 
on the appropriate size of the class size, I mentioned the Camp 
Lejeune situation with about 160 folks according to staff and 
then also if you could touch on timing. Is there a better time 
frame that we could fit these classes in for servicemembers 
before they leave?
    General Hedelund. Yes, sir. I will take the timing issue 
first because I think we all have a mind set that TAP is a 
place on a calendar.
    The Marine Corps' perspective on TAP is that it is only 
part of the larger personal and professional development 
program. And the Marine Corps' view to that is that we need to 
give our Marines tools along their career, not just toward the 
end, where they are already on board with much of what TAP is 
going to have to offer.
    The timing, then, is less crucial because they do not have 
to wait until that one event to gather all this information. 
They will have already done pre-work. They will have already 
done their online work. Even when they are deployed in most 
locations, most locations, they will have access to the 
Internet to be able to do some of this pre-work and some of the 
online resources that are available.
    So they will be familiar with some of these issues and some 
of the things that they want to accomplish in future life 
before they get to the actual TAP event. We would hope that by 
the time a Marine gets to that event, he is already saying I 
got that, good to go, I am on board, show me the money and 
let's move on. And that would help alleviate that issue.
    As far as class sizes go, again I think this is certainly 
an important issue right now with current TAP because given 
what we have today, which I think we all acknowledge is of 
limited success. The future holds that the critical event, the 
symptom, if you will, of large class size will be ameliorated 
partially because, A, it is not going to be at that critical 
time or at only one critical time during a Marine's career, 
but, B, the information will be spread out over time and the 
class size piece of it is not quite as critical at that point.
    An element of that is our view of that there may be a venue 
where you start this Transition Assistance Program, if you 
will, with a large plenary class, but that, much like many 
conferences are done these days, you have the plenary session 
that is more introductory and administrative and you break down 
into these break-out sessions where your interest is as the 
Marine; if you want to go down the educational track, then you 
go to the educational break-out session. If you want to go the 
vocational tech piece, then you go to that break-out session.
    And, quite frankly, if you are the Marine that wants to go 
to Mexico and surf for 3 months, you may not go to any of them. 
You may check off at that point and the mandatory piece was 
that core plenary session. You have the other tools you need 
and you have the reach-back capability after your 3 months in 
Mexico surfing to come back and say, well, what was the part 
about, and then we would help that Marine get to that linkage, 
if you will, toward that pathway.
    Mr. Stutzman. And I would think that type of model would 
fit right into what you are----
    Mr. Jefferson. I was hoping, Mr. Chairman, you would give 
me a chance to comment because this is exactly where we are 
going. We need to think of transition as a journey. We are 
going to have an amazing 2\1/2\ day TAP implement workshop. But 
what we are also working to do is to connect into each of the 
services career transition plans.
    So you do a TAP workshop as early as you can in your 
transition. Then you move into General Hedelund's Marine Corps' 
program. Then you move into the Army's ATAP Program. So we are 
working right now to put a connection between VETS' TAP 
implement workshop and Army ATAP.
    And then General Hedelund and I, we are meeting next week 
to begin doing that on the Marine side as well. So what you 
have is a journey where you get the certainty of what you want 
to do and then you figure out what your strengths are, what 
your improvement areas are, and then you continue to build and 
build on that so when you finally transition out, you are ready 
to go. And if you want to take some time off, you can loop back 
in through the Internet or through the reach-back services.
    So it is a journey which is what we are going to and this 
is a whole new paradigm.
    Mr. Stutzman. Thank you.
    Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman.
    General Hedelund and Mr. Burdette, my father graduated from 
high school in Montezuma, Iowa, in 1943 and literally went from 
the halls of Montezuma to the shores of Iwo Jima. And one of my 
proudest moments was a year ago when Leatherneck Magazine 
published this article called, ``My Father's Legacy'' on the 
65th anniversary of the Battle of Iwo Jima.
    My family, we learned the Marine Corps hymn before the Star 
Spangled Banner. That is just the way it was with my dad. But 
my father is also an example, I think, of what you are trying 
to talk about when you put together a program Marine for Life 
because his severe depression did not manifest itself until 
almost 30 years after he served on Iwo Jima.
    And it was not until 11 years after he died that my brother 
who was working at a VA hospital met a patient who was able to 
share that my father had seen one of his best friends vaporized 
by a shell burst on Iwo Jima. And, of course, that was 
something that our family knew nothing about.
    So when we have these wounded warriors coming home, many of 
them with signature wounds that are hidden from the public's 
view most of the time, it is important to keep in mind that our 
commitment to them, it is not something that we just provide 
them when they are demobilized on the back end of their active 
service to prepare them for a job. It is a lifetime commitment, 
and that is why I am so excited to hear about how we are 
rethinking the purpose of this TAP Program.
    One of the things that I did in high school was take an 
armed services vocational battery test as part of my mandatory 
high school testing that I went through. And when you were 
talking about the strong interest inventory, it struck me this 
must be a more updated and modernized version of that.
    Mr. Jefferson. Yes, sir.
    Mr. Braley. And I think that it is something that not just 
people who are returning from military service but many young 
people right now who are struggling to find their role in the 
world and what they want to do could benefit from.
    So I think what I would like to do is start with you, 
General Hedelund, and have you talk about what changes are 
being contemplated for this individualized career-long process. 
I am interested in how that is going to help moving forward to 
accomplish some of the goals we have been talking about.
    General Hedelund. Well, first, sir, your father's service 
is honored in our Corps. And I would also say that your 
family's sacrifice in supporting him throughout the years is 
obviously incredible in and of itself. So many thanks to you 
and your family.
    The piece that I think is important here is that our one-
size-fits-all approach to TAP in the past is just that, in the 
past. We have recognized through a number of different venues, 
and transition assistance is only one, where an individualized 
approach is much more successful.
    We have to give the Marines the tools before the traumatic 
event or before they are even thinking of transitioning from 
the Marine Corps.
    For instance, where is the best time to give a Marine 
financial management education, in that TAP class at the end of 
his Marine Corps career or maybe at the beginning of his Marine 
Corps career where he is just learning what a checkbook is all 
about and he is just learning about what it really means to be 
in charge of your own finances?
    So what we look at is we should engage with that Marine. We 
should have a process in place that engages with that Marine 
right from the get-go and says, okay, I got it. Thank you for 
joining the United States Marine Corps. You are going to get 
your personal financial management class training if you go 
through boot camp. In the meantime, what are your plans for the 
future?
    Now, I do not know if it will be that direct and that early 
in the process, but it will be very early in the process where 
we start to figure out what this person wants to do for the 
rest of his or her life.
    So that case management, if you will, will be important to 
take a litmus test right there. The assessment is one of those 
tools that we will use to take that litmus test.
    As that case builds over time, let's say that a Marine goes 
and he successfully finishes boot camp and he goes to his 
primary military specialty school and he is going to be an 
avionics man in the aviation community. Well, that is all 
important information for his future. That should be 
automatically catalogued and annotated in his case management 
record so that down the road when it is time to build a resume, 
he presses go on the computer and a draft resume comes out with 
all that experience.
    All that certification work, if you will, is already done 
for him so that when it comes time to transition, some of these 
things, they are automated, they are already a piece of both 
Mr. Jefferson's process and our process so that instead of 
taking the big leap out the door, you open a door and walk 
through and you are there.
    So those are some of the ideas we have. I will be honest 
with you. We do not have an example of that case management 
system right in front of us right now, but we have a pretty 
good idea of where we need to go and we have some capability 
that if we expand, we will be able, I think, to capture what we 
need to see what Marines need throughout their career.
    Mr. Braley. Thank you.
    Mr. Pamperin, first of all, congratulations. On behalf of 
all veterans of this country, thank you so much for your many 
years of service and every veteran in this country owes you a 
debt of gratitude because that is a long time to be working on 
behalf of veterans. So on behalf of everyone on the 
Subcommittee, congratulations on a job well done.
    Mr. Pamperin. Thank you, sir.
    And I would just like to point out that really one of the 
most enjoyable times I have had in my time was the 3\1/2\ years 
when I was Assistant Adjudication Officer in Des Moines.
    Mr. Braley. Oh, thank you. I will make sure that people in 
Des Moines hear that.
    I am not the brightest bulb in the sky, but I was 
interested in one of the statistics you shared with us. And if 
my math is correct, 45 percent of the veterans that came 
through this program found employment with a government job.
    Mr. Pamperin. Yes. The actual 51 percent were hired in the 
private sector and one-third in the Federal Government.
    Mr. Braley. You said 33 percent in the Federal Government, 
12 percent State and local?
    Mr. Pamperin. Yes.
    Mr. Braley. And I think that is important. At a time when 
government employees come under frequent attack, we need to 
realize that many of those government employees are veterans 
and that the Federal and State governments have done a 
significant job in employing our veterans and putting them to 
work. So I just wanted to acknowledge that and make that point.
    Mr. Burdette, you talked about those rejection letters and 
I think that was a powerful symbol for many of us because those 
of us who have gone through the experience of being rejected 
for employment, a lot of times, especially coming out of a 
military background, that just serves as greater motivation to 
try harder, to keep struggling until you get that job that you 
really are hoping for.
    But one of the other things that was really notable to me 
was, Mr. Jefferson, your comment about story telling----
    Mr. Jefferson. Yes, sir.
    Mr. Braley. Because I think this is one of the most 
underestimated assets of an employee is the ability to 
communicate and tell a powerful and compelling story.
    We know many of these veterans who are struggling to find 
employment have amazing stories of their life's journey that 
should be a great selling point to any employer no matter what 
additional issues they bring to the workplace because of the 
sacrifice they have made for this country and, yet, I am fairly 
confident that most employment training programs do not spend 
much time focusing on strengthening your story telling 
abilities.
    Mr. Jefferson. Yes.
    Mr. Braley. So can you tell me a little bit more about what 
you have in mind for helping people who many times are 
struggling to open up and share some of their personal intimate 
experiences that have changed their lives and are coming back 
trying to forget about some of those issues?
    Mr. Jefferson. Yes.
    Mr. Braley. How do you open up the door of opportunity to 
make them better story tellers?
    Mr. Jefferson. Great. And, sir, thank you for the question.
    And let me say I hope one of the things that we are taking 
away today is that career transition involves a high-tech and 
high-touch approach.
    And so in the high tech, we spoke yesterday about the H.R. 
tool kit we are creating with the Society for Human Resource 
Management. That will be a great online skills translator. We 
are looking to identify those.
    But we want our servicemembers to be their own skills 
translator. And so first thing we are going to educate them is 
to what happens during an interview. The fact that the person 
you are talking to is going to make the first decision in the 
first 1 to 2 minutes, they are going to spend the rest of the 
interview trying to make sure that they made the right decision 
to substantiate it.
    So we will be talking to the servicemembers and teaching 
them things such as what are those moments that you have had, 
how to articulate the subjective and objective assets that you 
have, so how you take a peak moment or contribution and then 
you break down what was the challenge, how did you approach 
dealing with that challenge, what were the results, and then 
what does that show about your objective assets, your hard 
tangible skills that you possess, and what does it show about 
your subjective assets, your personal qualities, commitment, 
creativity, courage.
    And then we pressure test this meaning we have them do it 
over and over and over again. What is your 1-minute elevator 
pitch? How did you respond to these most likely asked questions 
in interviews such as what is your greatest achievement, what 
is your greatest failure, your greatest challenge?
    And so we teach them the process experientially, we 
pressure test it, and we do that over again not just in TAP but 
in those 60 days after with the after TAP support.
    But story telling and making people their own skills 
translator is a critical component of our best practice 
content.
    Mr. Braley. Great. Thank you.
    And I yield back, Mr. Chairman.
    Mr. Stutzman. Well, thank you.
    I think I have just got a question yet for Mr. Pamperin. I 
was thinking of just giving you a pass since it was almost your 
retirement, but you are about to enter retirement. But while we 
have you, this question was here and I thought it would be a 
good question to ask.
    But the Veterans' Employment and Training Service currently 
uses contract instructors for all overseas and some CONUS-based 
(Continental United States-based) TAP classes and intends to 
contract out all TAP instruction.
    Is there any reason that the VA could not use or partner 
with VETS to contract out the VA portion of TAP?
    Mr. Pamperin. It is certainly a topic that we are more than 
willing to look at. I would like to emphasize that our 
perspective is that we want to do what is right and most 
effective for the servicemember.
    We have committed employees who do a good job at this, but 
it clearly is something that we are looking at, particularly 
since we are going to do a pilot of putting a person at one of 
the military sites overseas for 2 to 3 years depending upon 
status of forces or whatever, how long that would be, to see 
whether or not that is more effective than doing rotations.
    But, again, what I would like to emphasize is that our 
interest is in the servicemember and what is best for them.
    Mr. Stutzman. Okay. Well, thank you.
    Thank you, General, as well for being here and appreciate 
your service and what you are doing and, Mr. Burdette, as well 
for being here and what you are doing over at DoD.
    I am really excited, thanks, Mr. Jefferson, about what you 
have explained to us today. And if we can be helpful in any 
way, whether any legislation needs to be addressed, I am sure 
that we would be glad to work with you as far as this 
Subcommittee would.
    And I think at this time, we will go ahead and adjourn. But 
I just want to say thanks again to the panel and would ask 
unanimous consent that all Members have 5 legislative days in 
which to revise and extend their remarks on today's hearing. 
Hearing no objection, so ordered.
    And thanks again, and this concludes the Subcommittee on 
Economic Opportunity hearing. Thanks for being here. This 
meeting is adjourned.
    [Whereupon, at 12:36 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

             Prepared Statement of Hon. Marlin A. Stutzman,
             Chairman, Subcommittee on Economic Opportunity

    Good morning.
    The topic of this morning's hearing is the transition assistance 
program (TAP) and VetSuccess on Campus program. TAP is a program that 
is supposed to help discharging veterans transition from the military 
into civilian careers. VA also has a portion of TAP where they educate 
the servicemembers on the multitude of services that are available to 
them once they become veterans.
    My staff recently completed visits to four TAP sites in Florida, 
Georgia, North Carolina, and South Carolina and I believe Mr. Braley's 
staff has just visited several VetSuccess on Campus sites out west.
    I am going to yield to the distinguished Ranking Member in a moment 
to review his staff's visits, but I believe it is fair to say that the 
TAP site visits resulted in a mixed bag of observations.
    On the plus side, staff observed that, with one minor exception, 
nearly all the instructors' presentations were highly professional. The 
instructors had a level of energy and instructional techniques that 
were a pleasure to watch and the staff was encouraged by their 
enthusiasm and professionalism.
    Unfortunately, the staff could not say the same about facilities, 
class size and materials. For example, at Camp Lejeune, there were 165 
Marines in the class being held in a gym. While I know Assistant 
Secretary Jefferson is working hard to renovate TAP and congratulate 
him for his efforts, it appears that an insufficient number of 
instructors appears to be driving the class size at Lejeune and that, I 
am sure, Secretary Jefferson would agree is not acceptable.
    Additionally, DOL is not alone. Their TAP partners, DoD, VA, and 
the State workforce agencies need to take a hard look at the total 
quality of TAP. Across the TAP sites, handout materials were not 
standardized, sometimes out-of-date, or not available. In one instance, 
the materials failed to contain any information on the current Post-9/
11 GI Bill . . . which became law in 2009.
    And in at least one class, the VA instructor admitted he did not 
know much about some programs. For a program that has been in operation 
for nearly 20 years, those discrepancies are unacceptable; we cannot 
ignore today's shortcomings.
    I look forward to hearing from today's witnesses, and I will now 
yield to the gentleman from Iowa's First Congressional District, Mr. 
Braley.

                                 <F-dash>
            Prepared Statement of the Hon. Bruce L. Braley,
    Ranking Democratic Member, Subcommittee on Economic Opportunity

    Many of our brave servicemen and women in this country are 
returning in need of health care, employment, housing, educational, and 
other services. They, like all our veterans across the country, deserve 
our best efforts in providing the resources to ensure a seamless 
transition from military service to civilian life.
    The Subcommittee has explored various options to accommodate 
servicemembers and encourage them to attend the Transition Assistance 
Program (TAP) workshop as well as their spouses, and how to modernize 
TAP. Some proposed changes have included: expanding evening classes and 
adding online resources to accommodate servicemembers and their 
spouses' working schedules. Others had brought up the prospect of 
making the program mandatory for separating servicemembers and 
expanding existing Montgomery GI Bill benefits. I was happy to learn 
that the three responsible Departments that make TAP possible, DoD, VA, 
and DOL were also aware of the criticism surrounding TAP and they have 
been working to modernize this important workshop.
    Today, we will reexamine TAP and the progress that has been made by 
the Departments. I hope we also have the opportunity to learn how the 
program is assisting our veterans in a seamless transition into 
employment and their communities.
    As many of you know, the Transition Assistance Program was 
established to meet the needs of separating servicemembers during their 
period of readjustment into civilian life. The program offers job-
search assistance and related services such as workshops on resume 
writing, interview process, labor market overviews, personal appraisal, 
and VA benefits. The program seeks to provide veterans with the skills 
and services needed to transition into the workforce.
    Additionally, the VetSuccess on Campus program plays a similar role 
TAP. It helps individuals as they transition from being servicemembers 
to students. This seamless transition is critical to help student 
veteran's succeed in school. Most importantly, I believe, it is helping 
veterans feel welcome and accepted in campuses across the country. The 
age difference between a non veteran and a veteran in the classroom can 
vary, for veterans this age difference can feel as if they can't relate 
or can be intimidating at times. VetSuccess on Campus helps veterans 
network with other veterans. Furthermore, the VetSuccess on Campus can 
ease a veteran's transition by helping them apply for their education 
benefits.
    This hearing today will inform us of all the initiatives being 
implemented to help servicemember and veterans succeed.

                                 <F-dash>
                Prepared Statement of Christina M. Roof,
    National Acting Legislative Director, American Veterans (AMVETS)

    Chairman Stutzman, Ranking Member Braley and distinguished Members 
of the Subcommittee, on behalf of AMVETS, I would like to extend our 
gratitude for being given the opportunity to share with you our views 
and recommendations regarding the Transition Assistance Program and 
VetSuccess on Campus.
    AMVETS feels privileged in having been a leader, since 1944, in 
helping to preserve the freedoms secured by America's Armed Forces. 
Today our organization prides itself on the continuation of this 
tradition, as well as our undaunted dedication to ensuring that every 
past and present member of the Armed Forces receives all of their due 
entitlements. These individuals, who have devoted their entire lives to 
upholding our values and freedoms, deserve nothing less.
    By way of background, the Transition Assistance Program (TAP) was 
designed by the Department of Defense (DoD) to provide transition and 
job search assistance to separating servicemembers. TAP is a 
partnership among the Departments of Labor (DOL), Defense, Homeland 
Security (DHS) and Veterans Affairs (VA) to provide employment 
assistance and counseling services to members of the armed forces, and 
their eligible spouses, within 1 year of their separation or 2 years of 
their retirement from the military. TAP classes are usually held on a 
military installation or base and are composed of said location's 
servicemembers, who are close to the end of their service in the United 
States military.
    According to DoD, the following areas should be addressed in TAP 
classes for full-time active-duty servicemembers. The program consists 
of the following four components:

    1.  DoD Pre-separation Counseling: A thorough review of transition 
services, VA and DoD benefits and resources begins the transition 
process. DoD has published, but rarely educates servicemembers and 
their families, guidelines stating they should make an appointment with 
the bases transition office no later than 12 months before a members 
known separation date (for retiring servicemembers, you can make an 
appointment 24 months prior to your retirement date).
    2.  Department of Labor (DOL) Employment Workshops: During this 
2\1/2\ day workshop, servicemembers are to learn how to write a resume 
and cover letter, obtain information on skills assessment and job 
search techniques and learn about other important areas of interest 
regarding career and job services available to veterans through DOL.
    3.  A Benefits Briefing: A 2\1/2\ to 4-hour session, administered 
by a VA representative explaining VA benefits a servicemember may be 
entitled to, including the GI Bills, health care services and 
qualifications, VA education and employment counseling, home loan 
programs and all of the other important programs and information 
critical to ensuring a smooth transition from DoD to VA.
    4.  Disabled Transition Assistance Program (DTAP): Any 
servicemember with a service-connected disability is required to attend 
this 2-hour briefing if not hospitalized. DoD, VA and DOL 
representatives are supposed to jointly present vital information about 
eligibility for Chapter 31, Vocational Rehabilitation and Employment 
Service benefits provided by VA and DOL, health care services and other 
information key to the smooth transition of the disabled servicemember 
and their family.

    Optional and shorter, less in-depth TAP classes for qualifying and 
demobilizing National Guard and Reserve are to be composed of:

    1.  DoD Pre-separation Counseling: During demobilization, and prior 
to release from active duty, any servicemember returning from Operation 
Iraqi Freedom (OIF) and Operation Enduring Freedom (OEF) can receive 2 
hours of pre-separation counseling by a DoD official.
    2.  Department of Labor Uniformed Services Employment and 
Reemployment Rights Act (USERRA) Briefing: An USERRA Briefing is 
available prior to release from active-duty Guard or Reserve service. 
If the servicemember does not receive this briefing prior to release 
from active duty, they are given the choice to seek out the information 
on their own from a DOL Career One-Stop Center in their community if 
they wish to receive further employment assistance.
    3.  VA Benefits Briefing: Prior to release from active duty, you 
are eligible to receive a VA Benefits Briefing, if they request the 
briefing.
    4.  VA DTAP Briefing: This normally occurs as part of the VA 
Benefits Briefing and usually includes information about application 
procedures for vocational rehabilitation and employment assistance. 
This information is for servicemembers who have or think they have a 
service-connected disability. Once released from active duty, 
servicemembers are told they should always follow up with VA once they 
return home by contacting the VA office closest to where they live.

    While AMVETS is aware of the recent efforts to improve TAP, we 
still strongly believe the overall program to be falling short of its 
originally intended purposes. TAP classes are often the only 
opportunity a servicemember, or qualifying family member, will have to 
receive the critical information vital to sustaining their quality of 
life after the military. The transition from a military career to a 
civilian and corporate sector career is a culture shift, and sometimes 
very difficult. Veterans need employment and often need assistance in 
making the transition from a military culture to a civilian or 
corporate culture. This time of transition is one of the most stressful 
and challenging times for many veterans. After spending years becoming 
part of a respective military culture, servicemembers who leave the 
military face a new unknown culture when they step into a civilian role 
or corporate career. This transition is often complicated by injuries 
received, both visible and invisible, while serving their country. As 
battlefield medicine continues to save more lives, VA, DoD, DOL and DHS 
must be ready to adapt and change their current transition and 
education programs to meet the needs of today's transitioning veterans.
    The information previously listed, which outlines all aspects of 
the Transition Assistance Program must be presented thoroughly, as it 
is crucial to ensuring a seamless transition from DoD to civilian life. 
However, anyone who has ever served or has lived on base as either 
military personnel or as a qualifying family member knows that what is 
supposed to occur and what actually occurs, is more often than not, not 
one and the same. AMVETS believes this is due to the timing and length 
of TAP classes, lack of education and outreach to servicemembers and 
their families on the importance and eligibility of TAP, 
miscommunication and conflicting ``desired end results'' of the 
agencies tasked with providing TAP and outdated education models.
    There also appears to be a lack of faith in the thoroughness and 
success of TAP among the individual branches as well. This is 
demonstrated through the new programs and services within each branch 
of the military. For example, the U.S. Army Community Service Center, 
located at Walter Reed Medical Center, helps the total Army family by 
providing services to maintain stability and meet the challenges of 
military life and transition. Readiness services are available to 
active-duty and retired servicemembers, their family members, Army 
civilian employees and Reservists on active duty and during 
transitioning out. While TAP is a part of the services offered, there 
are five other services providing more focused and long term assistance 
with employment and transition issues. Another example lies within the 
U.S. Marine Corps (USMC), who for some time has taken their own, more 
successful approach to TAP. The USMC mandates every transitioning 
Marine participate in TAP and they also have a higher rate of eligible 
family member TAP attendance. While AMVETS applauds the individual 
branches for stepping up to fill in the gaps of services and 
information that are supposed to be well covered during TAP, we have to 
ask if taking the successful practices and programs from each branch 
and combining them into a uniform updated TAP would not be a better way 
of ensuring successful transition across every branch of the armed 
services. We are all aware of the fact that duplication of efforts and 
funding of multiple programs with large overlap is not the best way to 
meet the needs of today's transitioning war fighters and their 
families.
    Due to the disproportionately high unemployment rates among OEF/OIF 
and Operation New Dawn veterans, in June of 2010, The Society For Human 
Resource Management (SHRM) released their national survey findings 
entitled ``Employing Military Personnel and Recruiting Veterans--
Attitudes and Practices SHRM Poll.'' The large national survey examined 
pay and benefits that organizations provide to employees who have been 
mobilized to serve on active-duty service either as a Reservist or as a 
member of the National Guard, as well as the challenges organizations 
face when an employee has been mobilized to serve on active duty. The 
benefits and challenges of hiring military veterans were examined, as 
were the areas that would assist organizations in recruiting and hiring 
veterans. Unfortunately, the survey results confirmed what many of us 
have feared was occurring. Employers reported that while they wanted to 
actively seek out and hire veterans they did not know what the 
appropriate channels to achieve this were and did not receive much 
assistance when contacting local DOL and VA locations. The survey also 
showed that only 13 percent of private sector companies offered any 
type of transition assistance to newly separated servicemembers or 
active-duty returning Guard and Reserve members. Moreover, most 
companies reported the below reason they often hire and employ veterans 
and members of the Guard and Reserve:

----------------------------------------------------------------------------------------------------------------
                                                                          Organizations that  Organizations that
                                                      Organizations that     have made an      have not made an
                                                          have  hired       effort to  hire     effort to hire
                                                       veterans  (n=93-    veterans  (n=11-    veterans (n=107-
                                                             151)                 18)                167)
----------------------------------------------------------------------------------------------------------------
Strong sense of responsibility                                      97%                 94%                 98%
----------------------------------------------------------------------------------------------------------------
Ability to work under pressure                                      96%                 94%                 96%
----------------------------------------------------------------------------------------------------------------
Ability to see a task through to completion                         92%                 92%                 92%
----------------------------------------------------------------------------------------------------------------
Strong leadership skills                                            91%                 93%                 92%
----------------------------------------------------------------------------------------------------------------
High degree of professionalism                                      91%                 82%                 87%
----------------------------------------------------------------------------------------------------------------
Strong problem-solving skills                                       90%                 83%                 89%
----------------------------------------------------------------------------------------------------------------
Ability to multitask                                                89%                 91%                 84%
----------------------------------------------------------------------------------------------------------------
Ability to adapt to changing situations quickly                     88%                 85%                 89%
----------------------------------------------------------------------------------------------------------------
Ability to give back to U.S. veterans by showing                    88%                 87%                 93%
 gratitude for their service
----------------------------------------------------------------------------------------------------------------
Positive impact on the image and/or credibility of                  86%                 82%                 82%
 organization
----------------------------------------------------------------------------------------------------------------
Sense of patriotism at organization                                 77%                 82%                 84%
----------------------------------------------------------------------------------------------------------------
Technology/information technology skills and                        77%                 80%                 83%
 training
----------------------------------------------------------------------------------------------------------------
Strategic planning/foresight                                        74%                 73%                 80%
----------------------------------------------------------------------------------------------------------------
Fulfillment of Federal and/or State affirmative                     73%                 82%                 76%
 action requirements
----------------------------------------------------------------------------------------------------------------
Global perspective                                                  61%                 63%                 71%
----------------------------------------------------------------------------------------------------------------
Knowledge/expertise of defense issues                               60%                 73%                 79%
----------------------------------------------------------------------------------------------------------------

    However, employers and individual company's HR Departments listed 
the following as the top issues the private sector experiences when 
hiring a veteran:

    <bullet>  60 percent of employers found they were unable to 
translate a veteran's military experience into a job's requisites.
    <bullet>  48 percent said veterans had a difficult time 
transitioning out of the structure and hierarchy of military culture to 
that of a civilian workplace culture.
    <bullet>  46 percent reported veterans had difficulties directly 
relating to post-traumatic stress disorder (PTSD) or other mental 
health issues.
    <bullet>  36 percent reported problems with the amount of time it 
took veterans to adapt to their new workplace.
    <bullet>  22 percent said they had issues related to a veteran's 
combat related physical disabilities.
    <bullet>  18 percent of employers stated that they find veterans 
are not qualified for the positions in which they apply.

    As you can see from the above survey results, there remains to be 
some stigma attached to being a veteran when it comes to finding work 
in the private sector. While a couple of the aforesaid issues cannot be 
corrected through TAP, most of them could be with a proper TAP class 
and guidance. Better preparing our servicemembers for their transition 
to civilian life, as well as ensuring they are receiving all of the 
care and services necessary is the only way we have a chance at 
lowering the unemployment rate and properly addressing adjustment 
issues today's veterans are facing. AMVETS also believes that by 
properly preparing a servicemember for their life outside of the 
military we could possibly see a decrease in the usage and/or necessity 
for several other programs veterans and families seek during tough 
transition times. While AMVETS is in no way suggesting cutting funding 
or resources related to these other services that have severe overlap 
with TAP, we do believe that the number of veterans needing these other 
resources stands to decrease with a smoother transition, proper 
enrollment within the VA system and immediate employment after military 
discharge.
    AMVETS would like to make the following recommendations on ways to 
improve the Transition Assistance Program:

    1.  AMVETS strongly recommends TAP be a mandatory program in which 
all transitioning servicemembers and their eligible family members 
attend before release from DoD. The USMC has utilized this rule for 
many years and tends to have lower unemployment rates when compared to 
the other branches.
    2.  DoD, VA, DOL and DHS must design and implement a stronger DTAP 
program for wounded servicemembers, and their families, who are 
hospitalized or are receiving any type of medical rehabilitation during 
their military service discharge. While incredibly cutting edge with 
their medical care and military hospitals, such as Walter Reed, DoD 
often forgets that when a servicemember and their family go home there 
will be employment and transition issues that they need to be well 
prepared for. All military and VA medical centers must have a stronger, 
more in depth, need specific transition and employment programs for 
servicemembers and veterans having sustained a service-connected 
injury. We cannot reasonably expect a veteran or their family to 
sustain any sort of quality of life if we do not ready them for what 
lies ahead. We ready our troops for war, so we must also ready our 
veterans for their transitions.
    3.  AMVETS recommends the lengthening of the current two and a 
half, full day TAP class. The current method is almost information 
overload, resulting in transitioning servicemembers losing focus on the 
presented materials. Since the content is very broad in context and is 
all critical to a successful transition, AMVETS believes a longer 
length (i.e.- number of days) and shorter class days will result in 
better information exchanges and full comprehension of all of the 
information presented.
    4.  AMVETS strongly believes there needs to be more focus and 
education on the translation of military experience to a civilian skill 
set and resume, as well as what fields of employment to look for in the 
private sector. The training and real world application our 
servicemembers experience during their time in the military can be 
compared to that of higher education, technical schools and real life 
work experience. These men and women learn their area of expertise not 
simply to ``perform a job'', but rather to ``perform a job that may 
possibly mean ensuring the safety and lives of their comrades.'' We 
must ensure transitioning servicemembers possess a strong civilian 
resume upon DoD discharge from duty.
    5.  All TAP classes must include clearer and lengthier VA benefits 
and health care education sessions, as well as time for questions or 
concerns the participant may have. On average VA personnel are allotted 
2\1/2\ hours during a TAP class to educate the participants on the 
entire VA health and benefits system. As we know, the VA system can be 
very overwhelming to newly transitioning servicemembers. In fact many 
eligible veterans go without health care and employment resources due 
to their lack of understanding of the VA system and their eligibility 
to receive services. If you ask most veterans what they learned about 
VA's services and benefits during their TAP class you will usually get 
a very short response conveying an overall lack of understanding of 
information they received. AMVETS also usually finds those statements 
followed by a comment that since they were not catastrophically injured 
during their service they would not qualify anyway. Sadly, many of 
these same veterans have DoD disability ratings. AMVETS finds this 
unacceptable and urges a very strong review of VA's involvement in the 
TAP class. VA must have a reasonable amount of time to convey all of 
the critical information they have to share. Every transitioning 
servicemember and family must be armed with a clear understanding of 
the resources available to them.
    6.  AMVETS strongly recommends the inclusion or involvement of a 
certified Veterans Service Organization's Service Officer in the TAP 
class or at minimum, as an outside resource DoD, VA and DOL can refer 
servicemembers to by name. The claims process is daunting and the lack 
of education or information servicemembers and their families will ever 
receive on VA care and benefits is during their TAP class. TAP's 
section on VA care and benefits must be longer than a 2\1/2\-hour 
lecture. It is very hard to imagine how anyone could convey all of the 
important information needed to understand the VA system properly in 
2\1/2\ hours. One can only assume not every important part of VA's 
services and resources are being discussed. AMVETS understands that the 
desired end result of TAP slightly varies between the agencies involved 
and we understand why. However, this is no excuse to rush any program 
that stands to ensure a higher quality of life for the men and women 
who need TAP.
    7.  DoD, VA, DOL and DHS must redesign and build upon the programs 
available to active-duty National Guard and Reserve members. As the 
current conflicts have shown us, Guard and Reserve members are just as 
likely, if not more likely, to be deployed to a combat zone. This means 
these men and women are serving side by side their active-duty 
colleagues and are serving just as long. AMVETS finds it to be 
reprehensible that any Federal agency or any individual person would 
hold their service as less or not as life changing simply because they 
chose to serve their country as a member of the National Guard or 
Reserve. AMVETS believes TAP and DTAP must be thoroughly reviewed and 
redesigned to meet the growing needs of members of the Guard and 
Reserve. The face of today's modern military force continues to change. 
VA, DoD, DOL and DHS must continue to grow and adapt their services to 
accurately reflect these changes.
    8.  TAP is not designed for nor set up to meet the needs of 
qualified spouses. Even though TAP and DTAP are incredibly important to 
a spouse, especially when a servicemember has sustained a service-
connected life changing injury, little has changed in the way of 
outreach or class design to meet their specific needs. DoD, VA, DOL and 
DHS must do a better job educating the families of servicemembers on 
the availability of TAP classes to them, as well as other VA and DOL 
programs regarding employment, financial stability and health care 
resources that are available to the servicemember and to the family.

    Finally, AMVETS believes VetSuccess on Campus, even though still in 
its very early stages, has so far shown to be a successful tool veteran 
students can utilize while seeking a higher education. The colleges 
participating, as well as their veteran students, who have thus far 
utilized this program have reported very successful outcomes. The 
program has shown that through the collaborating of a Veterans Health 
Administration outreach coordinator, a qualified vocational 
rehabilitation counselor and an on-campus cohort counselor, veterans 
utilizing VR&E and/or the Post-9/11 GI Bill have had better outcomes 
with their transitions and academic performance. As a partner author of 
The Independent Budget, AMVETS recommends VA be given the authority and 
resources necessary to expand the program to campuses around the 
country. AMVETS further concurs with the 2012 Independent Budget's 
support of approving VR&E's request for an additional ten fulltime 
employees to assist with the expansion of the VetSuccess program. 
AMVETS looks forward to seeing the results and outcomes resulting from 
expansion of the VetSuccess on Campus program.
    Chairman Stutzman and distinguished Members of the Subcommittee, 
AMVETS would again like to thank you for inviting us to share with you 
our opinions and recommendations on these very important pieces of 
legislation. This concludes my testimony and I stand ready to answer 
any questions you may have for me.

                                 <F-dash>
       Prepared Statement of Marco Reininger, Legislative Fellow,
                Iraq and Afghanistan Veterans of America

    Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee. I want to thank you very much for the opportunity to 
testify before you today on behalf of the more than 200,000 veterans 
and supporters of Iraq and Afghanistan Veterans of America (IAVA) and 
the many veterans who are currently unemployed and looking for work.
    My name is Marco Reininger and I am an Army veteran of the war in 
Afghanistan where I conducted investigations into Improvised Explosive 
Device attacks and insurgent networks. I currently attend Columbia 
University on the new GI Bill, studying political science, and I work 
as a legislative fellow for IAVA.
    Mr. Chairman, unemployment is a major issue facing our newest 
generation of veterans. Approximately 214,000 or 10.9 percent of 
veterans of Iraq and Afghanistan are seeking employment. Not only is 
this number unacceptably high but it also represents a tremendous waste 
of resources. The members of our armed services are some of the best 
trained, most disciplined, and most ambitious men and women this 
country has to offer and not equipping them with the tools they need to 
make a successful transition into the civilian workforce is bad 
economics. Hundreds of thousands and often millions of taxpayer dollars 
are spent on training each Soldier, Sailor, Airman, and Marine and they 
often receive the most cutting edge instruction available in 
technology, the medical field, and other fields. Thus, every 
servicemember that cannot find employment after transitioning out of 
the military due to a lack of effective transition assistance or 
insufficiently knowledgeable civilian employers is a missed opportunity 
to add a highly-skilled worker to America's workforce.
    After two decades of no significant changes to the Transition 
Assistance Program (TAP) it is time to take a serious look at how we 
help our transitioning servicemembers to be successful in the civilian 
workforce and enable them to find the jobs they deserve. IAVA, 
therefore, fully supports an overhaul of TAP as proposed by the 
Department of Labor (DOL). Additionally, IAVA advocates for an 
expansion of the Department of Veterans Affairs' (VA) VetSuccess on 
Campus program to help veterans receive their GI Bill benefits on time, 
become successful college graduates, and be more attractive in the job 
market.

Transition Assistance Program
    On March 3rd, 2011, the Assistant Secretary of Labor for the 
Veterans' Employment and Training Service put forward excellent 
recommendations to overhaul TAP and turn it into a more effective and 
relevant program during his testimony before the Senate Committee on 
Veterans' Affairs. IAVA supports the recommended improvements in 
addition to several other crucial items.
    Nick Colgin is one vet who would have benefitted from improved TAP 
classes. Nick was a combat medic in the Army, but when it came to 
getting a job in the medical field in the civilian world, it proved 
almost impossible. Nick went through the TAP program, but was being 
treated for a TBI, and fulfilling other requirements to leave the Army 
at the same time, so the classes proved less than helpful. He was never 
taught how to write a resume or that he had to wear a suit to job 
interviews.
    When it came to finding a job, Nick enrolled in a Wilderness First 
Responder class to get the proper certifications to work as a civilian 
medic. To get this certification, Nick had to use his GI Bill benefits. 
When he was found to be overqualified for the jobs he applied for, he 
decided to cut his losses and finish his college degree instead.
    TAP needs to be a program that addresses each servicemember's 
unique level of experience, education, career of choice, and readiness 
to enter the civilian job market. Having a Lance Corporal Medic and 
Armor Lieutenant Colonel attend the same course, as is currently the 
case, is inefficient and a tremendous waste of opportunity. TAP should 
offer different categories of training and instruction based on a pre-
course assessment of each transitioning servicemember's unique skill 
set. The goal of TAP should be to provide each transitioning 
servicemember with a clear roadmap on what steps to take to achieve his 
or her employment goals. A successful TAP would ask the servicemember 
``What are their employment or entrepreneurial goals?'' and provide 
detailed answers on how to achieve them.
    The traditional TAP elements of resume writing, building job 
interviewing skills, and choosing the correct attire for employment 
interviews are important and IAVA supports maintaining them. However, 
the content and delivery of these modules should be assessed and made 
relevant to the current job market and business environment.
    Compared to past decades, very few employers and business leaders 
today have a direct relationship or even basic understanding of the 
military, making it difficult for veterans to translate their skills to 
the civilian world. Thus, in addition to the improvements introduced by 
the Assistant Secretary, the transitioning servicemember should be 
provided with the tools necessary to educate potential employers of the 
value he or she brings to the workforce. TAP should give servicemembers 
the ability to help employers understand a military resume and 
translate military skills into civilian skills. While a national effort 
is needed to educate employers to the value of hiring veterans, 
transitioning servicemembers cannot rely on best practices to be in 
place and need to be equipped to lead the effort themselves.
    A crucial component of making TAP more relevant is the addition of 
online tools and e-learning modules. Making the program effective will 
require increased instruction time and more attention on the 
individual. An online platform would help facilitate such improvements 
without exploding the program's cost and manpower requirements. 
Additionally, it would allow servicemembers to prepare questions for 
the instructors before and after the TAP course by completing e-
learning modules and reviewing TAP materials online. TAP facilitators 
should in return be available to provide individual support by 
answering such questions via the online platform or a dedicated 
telephone hotline.
    To create a standard quality of instruction TAP should be 
administered by Department of Labor (DOL) contracted instructors. Using 
contracted instructors would simplify having certified instructors, a 
standardized curriculum, and more accountability of the instructors 
without having to coordinate across Federal, State, and local 
government agencies. These instructors should be assessed on their 
instructional abilities and training success.
    Additionally, as part of making and keeping TAP relevant, DOL 
should begin measuring the program's success. The key elements of the 
program should be measured, as should the program's overall success in 
getting transitioning servicemembers hired. Beyond the recommendations 
made by the Assistant Secretary, IAVA recommends that an outside 
organization with sufficient research capabilities and expertise in 
analyzing performance metrics be contracted to conduct such 
measurements. The most important point, however, is that these 
measurements function as a basis for a full third-party audit of the 
program every 3 years to ensure that the program remains efficient and 
current, and does not again become de facto obsolete regardless of who 
is in charge of the White House and the DOL. We need to build for the 
future and ensure that TAP is set up to serve many generations of 
servicemembers to come.
    Lastly, the program will not succeed if servicemembers do not 
attend it or do not have enough time to learn the skills offered in it. 
According to the Bureau of Labor Statistics (BLS), in a recent survey 
of over 600,000 veterans, 45 percent submitted that they never attended 
TAP when separating from the military. Therefore, we recommend for the 
program to become mandatory for all transitioning servicemembers. 
Additionally, we recommend for the program to be sufficiently extended 
in duration to allow for all the suggested improvements to be 
implemented. In addition, an optimal TAP attendance window before 
separation should be determined to allow the servicemember sufficient 
time to prepare and adapt all the actions laid out in his or her 
transitioning plan. In the same BLS survey, a significant number of 
veterans indicated a preference for TAP to be offered 6 months prior to 
their discharge for such purposes.

Vet Success on Campus
    One of the most valuable steps a veteran can take to be successful 
in the job market is to earn a college degree. The post-9/11 GI Bill 
has already opened the doors to success for thousands of veterans 
across the country that would have otherwise been out of reach. And, as 
the number of student veterans increases and hundreds of thousands of 
veterans enroll in colleges across the country we will see our Nation 
transform for the better not unlike it did after World War II.
    Along with this important new veterans benefit come challenges for 
the VA and the educational institutions benefiting from the student 
veterans. To mitigate those challenges, VetSuccess on Campus, the VA 
program that places VA personnel dedicated to educational benefit 
counseling on college campuses, could play a crucial role in ensuring 
that student veterans receive their benefits in a timely and 
uncomplicated fashion without their academic success being jeopardized 
by benefit complications. It could also ensure that educational 
institutions are informed and educated on the procedures and terms of 
the GI Bill, and that the VA is not burdened with erroneous or 
unnecessary certifications and paper work.
    IAVA recommends that the number of vocational and peer-to-peer 
counselors as part of the VetSuccess on Campus program is increased and 
expanded to every campus that hosts a significant amount of student 
veterans. Currently, certifying officials are not trained to a specific 
standard or held accountable on whether they properly certify and 
facilitate the student veterans' educational benefits. And, while many 
educational institutions are doing an acceptable job in making sure 
their veterans are taken care of, other institutions are simply 
assigning already over-worked officials with the additional task of 
being a certifying official and navigating the complicated VA benefits 
process.
    Without an enforced standard, standardized training, and officials 
solely dedicated to certifying and serving colleges' veteran 
populations, it is always the student veteran that loses out by having 
the stress of a complicated and problematic GI Bill process added to an 
already stressful course load. Additionally, correct GI Bill 
certification is crucial for the veteran to receive the proper living 
stipend in a timely fashion. Especially, for student veterans who 
provide for their dependents while attending college the stipend is an 
instrumental financial life support that cannot be tampered with. 
Dedicated on-campus VA counselors that assist student veterans are a 
critical tool that should be present at every campus in America.
    The men and women that served our country in uniform are a 
tremendous resource of expertise, technical skill, and the right 
attitude for the workplace. In a time where our Nation faces economic 
turbulence, high unemployment, and the perils of an ever-growing 
deficit we simply cannot afford to leave this resource untapped. We 
must ensure our separating servicemembers get jobs and our veterans are 
hired. The suggestions IAVA made today are sensible and feasible steps 
to accelerate the process and we hope to be a resource to you in this 
endeavor.
    Mr. Chairman, this concludes my testimony and I would be delighted 
to answer any questions you or the Members of the Subcommittee may 
have. Thank you very much for the opportunity to speak before you 
today.

                                 <F-dash>
   Prepared Joint Statement of Brigadier General Robert F. Hedelund,
        Director, Marine and Family Programs, U.S. Marine Corps,
    U.S. Department of Defense, and Beth A. Barton, Ph.D., Manager,
 Personal and Professional Development Program, Marine Corps Community 
                Service, Marine Corps Community Services

                           EXECUTIVE SUMMARY

    The Transition Assistance Program (TAP), which was created to help 
separating and retiring servicemembers and their families make a smooth 
transition from a military career to the civilian sector, is a 
collaborative partnership between DoD, the Military Services, the 
Department of Labor (DOL), the Department of Veterans Affairs (VA), and 
the Department of Homeland Security (DHS).

      Marine Corps Transition Assistance Management Program (TAMP)

    Currently, the Marine Corps' Transition Assistance Management 
Program (TAMP) consists of 2\1/2\- to 3\1/2\-Day Workshops which 
include the following components with our other agency partners: USMC 
Preseparation Interview; USMC Preseparation Counseling Briefing; 
Department of Labor (DOL) Transition Assistance Program Employment 
Workshop; Department of Veterans Affairs Benefits Briefing; and 
Department of Veterans Affairs Disabled Transition Assistance Program 
(DTAP).

                              Camp Lejeune

    Camp Lejeune and Camp Pendleton are two of the largest 
installations in the Marine Corps. Based upon an internal review of 
operations for separating/retiring Marines, we found that Camp Lejeune 
and Camp Pendleton experience the highest number of Marines 
transitioning out of the Corps annually. On average, the typical TAP 
workshop (class) size at Camp Lejeune is 100. For FY 2010, Camp Lejeune 
held 82 TAP workshops, with a total of 8,201 participants. Since the 
most recent Memorandum of Understanding (MOU) among DOL, DoD, VA, and 
the Department of Homeland Security does not limit the size of the TAP 
workshop (class), Marine Corps installations have the latitude to 
expand the size of scheduled classes to meet their installations' 
servicemember demands. Generally, DOL and VA use their respective State 
agency representatives to conduct TAP workshops at Marine Corps 
installations. Per the Commandant's direction, we are in the process of 
vetting and approving all partners, affiliates, and contractors 
providing support services at TAP workshops.

                               Way Ahead

    In his Planning Guidance, our Commandant said, to ``Review and 
improve transition assistance--conduct an assessment of our Transition 
Assistance Program and recommend a plan to revolutionize our approach 
to better meet the needs of departing and retiring Marines.'' In 
response, we have established a goal to make the Marine Corps 
Transition Assistance Management Program (TAMP) more value-added for 
separating and retiring Marines.
    We will transform TAMP's 2\1/2\- to 3\1/2\-Day Transition 
Assistance Program (TAP) Workshops from event-driven to process-driven 
programs and support services along four ``military to civilian'' 
pathways: Employment; Career/Technical Education; College/University; 
and Entrepreneurship. We are developing a 3-year strategic and 
operational plan to improve and streamline Transition Assistance 
programs and services for our Marines and their families. We will 
inventory TAMP's capabilities; assess current operations for 
redundancies and gaps; standardize TAP workshop core curriculum and 
electives; adopt best practices, and establish Measures of 
Effectiveness which enable the Marine Corps to continuously improve our 
Transition Assistance programs and services.
    We believe our efforts will result in an innovative program that 
addresses the Commandant's concerns, meets the needs of our Marines and 
their families as they progress through their military life cycle, and 
help them transition successfully to a post-military career.
                               __________

                              Introduction

    Chairman Stutzman, Ranking Member Braley, and distinguished Members 
of the Subcommittee, thank you for your interest in the Marine Corps 
Transition Assistance Management Program (TAMP) and the opportunity to 
discuss the important steps we are taking to transform our program from 
an event-driven process to one of engaging our Marines at their initial 
entry into the Corps, helping them establish their long-term education 
and career goals along the way, and equipping them with the skills they 
need to successfully reintegrate back into civilian life and workforce 
once they leave the Service.

 Transition Assistance Management Program (TAMP)_Collaborative Process

    The TAMP, which was developed by the Department of Defense (DoD) to 
help separating and retiring servicemembers and their families make a 
smooth transition from a military career to the civilian sector, is a 
collaborative partnership between DoD, the Military Services, the 
Department of Labor (DOL), the Department of Veterans Affairs (VA), and 
the Department of Homeland Security (DHS).
    Partnering with our sister Services and agencies, the Marine Corps 
currently provides 2\1/2\- to 3\1/2\-day Transition Assistance Program 
(TAP) workshops which are designed to assist all active-duty personnel 
and family members with their transition to the civilian sector. 
Currently, the key components include the following, all of which are 
mandatory for the Marine Corps:

    <bullet>  USMC Preseparation Interview includes an explanation of 
the transition requirements for separating and retiring servicemembers 
and how to obtain Verification of Military Experience and Training 
(VMET).
    <bullet>  USMC Preseparation Counseling Briefing must be completed 
before a servicemember can separate or retire and involves subject 
matter experts outlining the available benefits and entitlements to 
transitioning servicemembers. As part of this process, servicemembers 
complete the DD Form 2648/-1 Preseparation Checklist.
    <bullet>  DOL Transition Assistance Program (TAP) Employment 
Workshop includes comprehensive information on such topics as how to 
write a resume and cover letter; getting information on skills 
assessment; job search techniques; and accessing DOL's Career One-Stop 
Center in their local community to continue their job search, if 
necessary.
    <bullet>  The Department of Veterans Affairs Benefits Briefing 
outlines the VA benefits, health care, and entitlements separating and 
retiring servicemembers may be entitled to; the procedures for applying 
for such benefits; as well as information on the Montgomery and Post-9/
11 GI Bills.
    <bullet>  The Department of Veterans Affairs Disabled Transition 
Assistance Program (DTAP) is specifically geared to servicemembers who 
have a disability verified by a VA physician. The program focuses on 
eligibility requirements for Chapter 31 Vocational Rehabilitation and 
Employment benefits.

                              Camp Lejeune

    Camp Lejeune and Camp Pendleton are two of the largest 
installations in the Marine Corps. Based upon an internal review of 
operations for separating/retiring Marines, we found that Camp Lejeune 
and Camp Pendleton experience the highest number of Marines 
transitioning out of the Corps annually. On average, the typical TAP 
workshop (class) size at Camp Lejeune is 100. For FY 2010, Camp Lejeune 
held 82 TAP workshops, with a total of 8,201 participants. Since the 
most recent Memorandum of Understanding (MOU) among DOL, DoD, VA, and 
the Department of Homeland Security does not limit the size of the TAP 
workshop (class), Marine Corps installations have the latitude to 
expand the size of scheduled classes to meet their installations' 
servicemember demands.

    Generally, DOL and VA use their respective State agency 
representatives to conduct TAP workshops at Marine Corps installations. 
Per the Commandant's direction, we are in the process of vetting and 
approving all partners, affiliates, and contractors providing support 
services at TAP workshops.

                               Way Ahead

    In his Planning Guidance, our Commandant said, to ``Review and 
improve transition assistance--conduct an assessment of our Transition 
Assistance Program and recommend a plan to revolutionize our approach 
to better meet the needs of departing and retiring Marines.'' In 
response, we have established a goal to make the Marine Corps' TAMP 
more value-added for separating and retiring Marines.
    From 2009 to 2010, the Marine Corps conducted various assessments 
of the TAMP and the Personal and Professional Development and noted 
many deficiencies. In response, we established two Transition 
Assistance Operational Planning Teams in 2010 to assess existing 
programs. These teams identified issues, stakeholders and a conceptual 
framework for improved services and ways to integrate Marine Corps 
Community Services transition assets. Key stakeholders involved in this 
process include Marine recruiters, commanders, Unit Transition 
Coordinators, and most importantly--our Marines and their family 
members.
    With our predominately first-term force, we are committed to 
reaching our Marines at designated touch points, helping them develop 
roadmaps to support their Marine careers, and better equipping them to 
reintegrate back into civilian life upon leaving active-duty service. 
We have developed an end-to-end process improvement plan, are 
initiating actions, and are integrating existing capabilities that 
directly improve the quality of support provided to our Marines. In the 
near future, our transition assistance will become a personal and 
professional development process that will transition Marines into 
civilian life with the knowledge, skills, and abilities to better 
leverage their Marine Corps time and experience into meaningful 
careers.
    We will transform TAMP's 2\1/2\- to 3\1/2\-Day Transition 
Assistance Program (TAP) Workshop from event-driven to process-driven 
programs and support services along four ``military to civilian'' 
pathways: Employment; Career/Technical Education; College/University; 
and Entrepreneurship.
    We are developing a 3-year strategic and operational plan to 
improve and streamline Transition Assistance programs and services for 
our Marines and their families. To date, we have developed a plan which 
inventories and assesses critical components of our TAMP, based on the 
following three phases:

    <bullet>  Phase I focuses on 180 days pre- and post-end of active-
duty service, which includes an inventory of our TAMP capabilities, an 
assessment of current operations for redundancies and gaps, a 
requirement that our TAP workshop core curriculum and electives be 
standardized (with well-defined learning objectives and exit outcomes), 
and an adoption of best practices.
    <bullet>  Phase II and Phase III are still in development, based 
upon Measures of Effectiveness indicators that will be adopted, used, 
and assessed by Marine Corps Headquarters and all installations to 
continuously improve our Transition Assistance programs and services.

                               Conclusion

    We believe our efforts will result in an innovative program that 
addresses the Commandant's concerns, meets the needs of our Marines and 
their families as they progress through their military life cycle, and 
help them transition successfully to a post-military career.
    Thank you for the opportunity to present this testimony.

                                 <F-dash>
    Prepared Statement of Thomas J. Pamperin, Deputy Under Secretary
      for Disability Assistance, Veterans Benefits Administration,
                  U.S. Department of Veterans Affairs

    Mr. Chairman, Ranking Member Braley, and Members of the 
Subcommittee, I appreciate the opportunity to appear before you today 
to discuss the Department of Veterans Affairs (VA) Transition 
Assistance Program (TAP) and the VetSuccess program. My testimony will 
cover what we are currently doing in the TAP program, the current TAP 
reengineering efforts, and other support to separating Servicemembers 
and Veterans, to include the VetSuccess program and our efforts in the 
VetSuccess on Campus program. I am accompanied today by Ms. Ruth 
Fanning, Director, Vocational Rehabilitation and Employment (VR&E) 
Service, VBA.

VA Transition Assistance Program
    TAP is conducted under the auspices of a memorandum of 
understanding between the Departments of Labor, Defense, Homeland 
Security, and VA. The Departments work together to schedule briefings 
and classes on installations to best serve Servicemembers and their 
expectations as they prepare for their transition from active military 
service. Quarterly meetings among the Departments are held to oversee 
the operations of the program and to plan enhancements to TAP.
    VA's TAP briefings are provided by trained Military Services 
Coordinators (MSCs) from the regional offices with jurisdiction over 
military installations in the United States and Puerto Rico. TAP 
services are provided to Servicemembers stationed outside the United 
States through seven overseas MSCs providing services in the United 
Kingdom, Germany, Italy, Spain, Okinawa, Japan and Korea. VA also 
provides transition briefings to demobilizing Reserve and National 
Guard Servicemembers. These briefings are typically held at the Reserve 
component Servicemembers' home station after completion of the 
deployment.
    At TAP briefings, Servicemembers learn about the array of benefits 
and services available from VA. Servicemembers learn how to complete 
applications and are advised about what evidence is needed to support 
their claims. Following the general instruction segment, personal 
interviews are conducted with those Servicemembers who want assistance 
in preparing and submitting their applications for disability 
compensation and other benefits. In FY 2010, approximately 207,000 
active duty, Reserve, and National Guard Servicemembers participated in 
over 5,000 transition briefings. From October 1, 2010, through March 
2011, over 83,000 active duty, Reserve, and National Guard 
Servicemembers participated in over 2,000 transition briefings.
    In June 2010, VA established the TAP Re-Engineering Project Team in 
response to a request from the VA/DoD Joint Executive Council to update 
the existing briefing to ensure that it met the needs of current 
Servicemembers. The project team revised the briefing and is currently 
developing a web-based version of VA's portion of TAP to be available 
in the fourth quarter of 2011, for use in lieu of the existing ``brick 
and mortar'' classroom environment where appropriate. Our goal is to 
achieve 100-percent Servicemember participation in 2012 by enabling 
Servicemembers to complete the VA benefits briefing at their 
convenience prior to discharge.
    Our efforts to improve the VA portion of TAP include three main 
elements: expanded training of briefers, continuous updates, and 
greater oversight of the program. The classroom TAP presentation has 
been revised and updated, reducing the number of slides by over 50 
percent while focusing the remaining slides in a standardized template. 
Training has been completed on the new slide deck to over 200 VA 
employees, including those at overseas locations. A web page has been 
created to keep VA benefits briefers updated on benefits and resources. 
Monthly conference calls have been initiated to provide briefers with 
direct access to various subject matter experts, updated information on 
VA benefits, upcoming program changes/enhancements; and to communicate 
best practices. A survey tool is also under development for both the 
in-person briefing and online information to track attendance and 
customer feedback. This survey tool will provide VA with valuable 
information, including participation rates, customer satisfaction data, 
and qualitative feedback, which will help VA to better meet the needs 
of our separating Servicemembers.
    As part of the continual development of the VA portion of TAP, VA 
is conducting monthly reviews of the information on the slide deck and 
online. In 2012, VA will begin scheduled site visits to review the 
delivery of the classroom briefings.

VetSuccess Program
    The goal of the VetSuccess program is to assist Veterans with 
service-connected disabilities to prepare for and obtain suitable and 
sustainable employment through the provision of services individually 
tailored to each Veteran's needs.
    VetSuccess services begin with a comprehensive evaluation to help 
Veterans identify and understand their interests, aptitudes, and 
transferable skills. Next, vocational exploration focuses Veterans' 
potential career goals in line with labor-market demands. This allows 
Veterans to participate as partners with their counselors in the 
development of a rehabilitation plan that builds on their transferable 
skills and ultimately assists them in achieving their career goals. To 
help Veterans accomplish their rehabilitation goals, VR&E provides a 
broad range of employment services including:

    <bullet>  Translation of military experience to civilian skill 
sets;
    <bullet>  Direct job-placement services;
    <bullet>  Short-term training to augment existing skills to 
increase employability (e.g., certification preparation tests and 
sponsorship of certification);
    <bullet>  Long-term training including on-the-job training, 
apprenticeships, college training, or services that support self-
employment;
    <bullet>  Independent-living services for those Veterans so 
severely disabled they may not currently be able to work, with the goal 
of exploring vocational options when each individual is ready; and
    <bullet>  On-going case-management assistance throughout their 
rehabilitation programs to assist with any needs that would interfere 
with retention and completion to the point of employment.

    Veteran employment is the fundamental mission of the VR&E 
VetSuccess program. Success relies on early intervention, smart 
processes, productive partnerships, good rehabilitation planning, and 
retention to the point that each Veteran is job-ready. Although all of 
these areas are vitally important, the most important are those 
services at the end of the program that assist job-ready Veterans to 
cross the finish line and land the career that they prepared for 
throughout their civilian and military experiences.
    In FY 2010, out of the 10,038 Veterans that were successfully 
rehabilitated from the program, 51 percent were hired in the private 
sector, 33 percent were hired with the Federal Government, 12 percent 
were hired with State and local government, and 4 percent were hired 
with faith-based and community organizations. Of note, 79 percent of 
Veterans were employed in professional, technical, or managerial 
careers, earning an average annual starting salary of $38,734.
    The VetSuccess.gov Web site has been enhanced to provide a one-stop 
resource for both disabled and able-bodied Veterans and family members 
to access services during transition, campus life, job search, and 
career attainment. The program also assists Veterans with disabilities 
to maximize independence in their homes and communities. The Web site 
includes a job board for employers desiring to hire Veterans; resume 
builders and upload tools that allow Veterans to utilize resumes 
already developed; a military-to-civilian jobs translator; aggregator 
tools for employers seeking certain skill sets and for Veterans seeking 
specific jobs; and a feedback mechanism to self-report employment 
gained through the site. The job-board feature of VetSuccess.gov 
currently connects over 68,000 Veterans with over 1,500 employers. 
Veterans also have access through the Direct Employers Job Central 
career board to over 4 million jobs, with additional links to other 
popular and highly populated job boards. Other enhancements to the site 
include self-assessment tools and interactive maps that drill down to 
resources in the Veteran's community. Future enhancements will include 
self-assessment tools, an enhanced military-to-civilian-jobs 
translator, and linkage to E-Benefits effective next month, allowing 
the self-service features such as checking the status of a specific 
employment application.
    The VA VetSuccess on Campus program was established in June 2009 to 
provide support to Veteran-students in completing college or university 
degrees, including Veterans using the Post-9/11 GI Bill. The VetSuccess 
on Campus program is currently in place at eight campuses: the 
University of South Florida, Cleveland State University, San Diego 
State University, Rhode Island College, Rhode Island Community College, 
Texas A&M Central Texas, Arizona State University and Salt Lake 
Community College. Over 4,500 Veteran-students have been served at 
these eight campuses.
    VA plans to expand VetSuccess on Campus to 9 additional campuses 
with Veteran populations of 800-1,200 students in 2012. The VetSuccess 
on Campus program is designed to give needed support to all Veterans 
pursuing training through one of the educational programs administered 
by VA, as well as to Veterans who are not entitled to one of VA's 
education benefit programs. Our objective is to significantly increase 
the potential for graduation and successful transition to a career that 
supports Veterans' and their families and contributes to well-being of 
the Nation.
    Mr. Chairman, we at VA are proud of our continuing role in the 
transition of Servicemembers from military to civilian life, and seek 
to continually improve the quality and breadth of our outreach efforts 
to active duty, Reserve, and National Guard members.
    Thank you for allowing me to appear before you today. I would be 
pleased to respond to any questions from Members of the Subcommittee.

                                 <F-dash>
Prepared Statement of Philip A. Burdette, Principal Director, Office of 
 Wounded Warrior Care and Transition Policy, U.S. Department of Defense

    Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee:
    Thank you for the opportunity to discuss the views of the 
Department of Defense (DoD) on the performance of the Transition 
Assistance Program (TAP). TAP is a collaborative partnership between 
DoD, the Department of Labor (DOL), and the Department of Veterans 
Affairs (VA) and is the primary platform used to deliver an extensive 
array of services and benefits information to separating 
servicemembers. The Department also focuses on providing separating and 
retiring servicemembers useful information and assistance in all 
aspects of the transition process, including preparation for post-
military employment.

TAP OVERVIEW
    Servicemembers are required by law to commence pre-separation 
counseling no later than 90 days prior to active-duty separation but 
are strongly advised and encouraged to start the process 12 months 
before separation, or 24 months before retirement. In addition to the 
mandatory pre-separation counseling, DoD counselors make every effort 
to encourage transitioning servicemembers to participate in the 
voluntary TAP components, which are the VA's Benefits Briefing, 
Disabled Transition Assistance Program (DTAP) and DOL's TAP Employment 
Workshop. Each Department is independently responsible for how to 
provide its portion of TAP to servicemembers. The decision of how to 
accomplish that, including the utilization of contract support, resides 
solely with the individual Departments. DoD wants every effort made to 
ensure quality instructional delivery of the material.
    Taking full advantage of what TAP has to offer enables 
servicemembers to be strong competitors for career opportunities in the 
civilian workforce. During mandatory pre-separation counseling, 
servicemembers review and complete an extensive checklist with a 
counselor. After servicemembers complete the pre-separation counseling 
portion of TAP, they receive a copy of the checklist (DD Form 2648 for 
Active Duty and DD Form 2648-1 for the National Guard and Reserves) so 
they can refer back to it and look up Web sites and other information 
to reinforce what they received during the pre-separation counseling 
session. The checklists have all the topics required by statute that a 
counselor must address during the pre-separation counseling session. 
The forms are used by separating servicemembers and their spouses to 
record that pre-separation counseling was conducted.
    If the servicemember desires more information on any topic on the 
pre-separation counseling checklist that exceeds the general knowledge 
of the counselor, then the member checks a ``YES'' block next to the 
item on the form, and the counselor refers the servicemember to a 
subject matter expert who is able to assist the member with the desired 
information, or get the answers to questions which the transition 
counselor may not have been able to answer. The subject matter expert 
may be a family support transition or education counselor located at 
the installation, or it may be a DOL or VA representative who provides 
TAP support at the installation.

                   ENHANCED TAP FOR THE 21ST CENTURY

    To strengthen our TAP and reinforce its value to servicemembers and 
their families, the Department, in collaboration with our partners at 
VA and DOL, is committed to moving TAP from a traditional event-driven 
approach to a modern, innovative lifecycle approach. We are shifting 
from an end of military service event to an outcome-based model, that 
will measure success not only on the number of servicemembers who use 
the TAP process, but also on the number of transitioning servicemembers 
and their families who find the TAP process beneficial in assisting 
them with their life goals, military career progression, and/or new 
careers/meaningful employment outside of uniformed service. We will be 
implementing this strategic plan with focuses on information 
technology, strategic communications, resources and performance 
management. The end-state for the TAP overhaul will be a population of 
servicemembers who have the knowledge, skills, and abilities to empower 
themselves to make informed career decisions, be competitive in the 
global workforce and become positive contributors to their community as 
they transition from military to civilian life.
    As part of this effort, we launched the DoD Career Decision Toolkit 
in August 2010. Available both online and in CD format, the Toolkit was 
developed in collaboration with the Military Services and our TAP 
partners at VA and DOL to help simplify the learning curve for 
transitioning servicemembers with the information, tools, and resources 
they need to succeed in the next phase of their lives. The toolkit uses 
the latest technology to consolidate the very best teaching materials 
from all the Service branches and provides thousands of on-demand 
resources to servicemembers. It is interactive, simple to use and 
portable. The toolkit includes:

    <bullet>  More than 3,000 on-demand information and planning 
resources
    <bullet>  Transition subjects such as career exploration, financial 
planning, resume creation, interviewing skills and compensation 
negotiation
    <bullet>  Tools that enable servicemembers to catalogue their 
military skills, training, and experience in ways that transfer to 
civilian sector
    <bullet>  Post-Service benefits and resources
    <bullet>  Resources that allow users to self-assess individual 
transition needs and plan personalized options

    One of the great benefits of this toolkit is the ability for the 
servicemember to access the information anytime, anywhere as they have 
concerns/questions/issues with their transition.
    In addition to the Toolkit, we began offering a series of virtual 
learning opportunities to transitioning servicemembers and military 
spouses on March 1st of this year. The free online classes are 
available to any servicemember and military spouse worldwide and 
provide them with an interactive educational forum to delve into 
employment and career related topics, such as ``Building Better 
Resumes'' and ``Financial Planning for a Career Change.'' The classes 
are highly encouraged for servicemembers looking to bolster their 
transition-related knowledge, especially geographically separated 
members of the National Guard and Reserves and recovering Wounded 
Warriors. To date, there have been more than 1,330 registrations for 
these weekly classes by Guard and Reserve members, Wounded Warriors, 
family members, and servicemembers stationed around the world, 
including registrations by military personnel stationed overseas in 
Diego Garcia, BIOT; Guantanamo Bay, Cuba; Honduras; Italy; Japan; 
Korea; Germany; and members deployed to Afghanistan and Iraq. Military 
spouses are also among the many participants who have enjoyed this new 
delivery methodology.
    The TAP Virtual Learning Seminars have also been enthusiastically 
embraced by senior military leadership and prominent figures in 
business and academia, some of whom now participate in online seminars 
as ``surprise celebrity guests.'' Leaders such as Army Reserve Command 
Sergeant Major Michael D. Schultz; Navy Reserve Force Master Chief 
Ronney A. Wright; Philip Dana, Amazon's Military Recruiting H.R. 
Manager; and Dr. Timothy Butler, Harvard Business School's Director of 
Career Development Programs, have made guest appearances to motivate 
the attendees, stress the importance of proper transition planning, and 
also to participate in the online classes along with the servicemembers 
and families.
    The Toolkit and the virtual classes are just the beginning of our 
effort to move TAP into the digital spectrum.
    We are developing an ``end-to-end'' virtual TAP delivery platform 
that will provide the backbone of the transformed program, integrating 
the Guard and Reserve components, as well as expanding services 
available to family members.
    DoD has also played a supporting role with the Office of Personnel 
Management (OPM) on the initiative to increase hiring veterans in all 
Federal agencies. This is now recognized as President Obama's Veterans 
Employment Initiative that directs all Executive Agencies to increase 
veteran employment. TAP is one of the programs we will use to educate 
and inform servicemembers about Federal service career opportunities.
    Additionally, we established our presence on the social networks. 
Our Facebook page continues to help promote information that impacts 
transition and has helped several servicemembers who may have otherwise 
missed critical transition planning information. During this fiscal 
year, fans and non-fans have viewed our Facebook postings over 892,500 
times. Our social network continues to expand as employers begin 
posting employment opportunities and provide mentoring advice for 
transitioning personnel.

Focus on Credentialing
    The Department continues to provide licensure and certification 
information in a range of ways and in different formats in order to 
appeal to individual learning styles and ensure the widest possible 
dissemination. It is important to note, DoD does not serve as a 
credentialing body. These bodies are typically well-defined for 
licensure requirements by governmental agencies--Federal, State, or 
local--who grant licenses to individuals to practice a specific 
occupation, such as a medical license for physicians. State or Federal 
laws or regulations define the standards that individuals must meet to 
become licensed.
    Non-governmental agencies, associations, and even private sector 
companies grant certifications to individuals who meet predetermined 
qualifications. These qualifications are generally set by professional 
associations (for example, National Commission for the Certification of 
Crane Operators) or by industry and product-related organizations (for 
example, Novell Certified Engineer). Certification is typically an 
optional credential; although some State licensure boards and some 
employers may require it. For many occupations, more than one 
organization may offer certifications.

Verification of Military Experience and Training
    The Verification of Military Experience and Training (VMET) 
document was established by Public Law in November 1990 to assist 
departing servicemembers transitioning to civilian life by providing a 
verification of their military skills and training, and translating 
them into civilian terms. The Defense Manpower Data Center (DMDC), a 
DoD activity that supports the Office of the Under Secretary of Defense 
for Personnel & Readiness (OUSD/P&R), has the responsibility for 
producing the VMET documents and maintaining the VMET Web site.
    The enhanced DD Form 2586, Verification of Military Experience and 
Training, is now available on demand directly from the DMDC Web site at 
www.dmdc.osd.mil/vmet. Access to the document is protected by secure 
login protocols.
    The VMET is not an official transcript for purposes of granting 
college credit, but it can be used for verification of having met 
training and/or course requirements to qualify for civilian 
occupations, certificates, licenses, or programs of study. Credit 
recommendations from the American Council of Education (ACE) for 
occupations and/or courses are listed when they are available, though 
academic institutions determine which credits are applicable to a 
program of study.

A Lifecycle of Credentialing Education
    The Department realized that for licensure and certification 
programs to be effective, they must be introduced to servicemembers 
early in their careers, not at the time of separation. We are taking 
full advantage of the DOL's Career One Stop (www.careeronestop.org) 
online resource and promoting utilization throughout the entire 
military lifecycle to reinforce the value of military training and 
experience. In this application, servicemembers link to the Credentials 
Center, which they can use to locate State-specific occupational 
licensing requirements, agency contact information and information 
about industry-recognized certifications. There are also associated 
workforce education and examinations that test or enhance knowledge, 
experience and skills in related civilian occupations and professions.
    Other resources such as the Army and Navy Credentialing 
Opportunities Online (COOL) Web sites are readily available. Army and 
Navy COOL sites explain how Soldiers and Sailors can meet civilian 
certification and licensure requirements related to their military 
occupational specialties or ratings. They also serve as a resource to 
identify what civilian credentials relate to a servicemember's Military 
Occupational Specialty (MOS) or Rating and how to obtain them. The Air 
Force emphasis on licensure and certification is two-fold--career-
related degrees and certification from civilian schools. The COOL 
search-tool equivalent for Airmen, known as the Credentialing and 
Research Tool (CERT), links the CCAF degree programs with nationally-
recognized professional certifications relevant to specific career 
fields.
    Additional resources include the DoD/DOL United Services Military 
Apprenticeship Program (USMAP), the Defense Activity for Non-
Traditional Education Support (DANTES), and TurboTAP, DoD's official 
TAP Web site. All of the aforementioned resources were developed and 
designed to help servicemembers translate their skills and experience 
into opportunities for civilian employment.

DoD AND MILITARY SERVICES PROGRAMS AND TOOLS
    In recognition of the importance of the need for highly-qualified, 
experienced information assurance personnel, DoD has established a 
policy requiring certain individuals with privileged access to DoD 
information systems to obtain civilian credentials. DoD Manual 8570.1-M 
requires any full- or part-time military servicemember, contractor, or 
foreign employee with privileged access to a DoD information system, 
regardless of job or occupational series, to obtain a commercial 
information security credential accredited by the American National 
Standards Institute (ANSI) or equivalent authorized body under the 
ANSI/ISO/IEC 17024 Standard. The Manual also requires that those same 
employees maintain their certified status with a certain number of 
hours of continuing professional education each year. The number of 
people affected by this mandate is estimated to top 100,000, including 
any full- or part-time military servicemember, contractor, or foreign 
employee with privileged access to a DoD information system, regardless 
of job or occupational series.

OTHER TRANSITION-RELATED EMPLOYMENT INITIATIVES
Operation Warfighter (OWF)
    OWF is a DoD-sponsored internship program that offers recuperating 
wounded, ill and injured servicemembers meaningful activity that 
positively impacts wellness and offers a process of transitioning back 
to duty or entering into the civilian workforce. The main objective of 
OWF is to place recuperating servicemembers in supportive work settings 
that positively benefit the recuperation process.
    OWF represents a great opportunity for transitioning servicemembers 
to augment their employment readiness by building their resumes, 
exploring employment interests, developing job skills, benefiting from 
both formal and on-the-job training opportunities, and gaining valuable 
Federal Government work experience that will help prepare them for the 
future. The program strives to demonstrate to participants that the 
skills they have obtained in the military are transferable into 
civilian employment. For servicemembers who will return to duty, the 
program enables these participants to maintain their skill sets and 
provides the opportunity for additional training and experience that 
can subsequently benefit the military. OWF simultaneously enables 
Federal employers to better familiarize themselves with the skill sets 
of wounded, ill and injured servicemembers as well as benefit from the 
considerable talent and dedication of these transitioning 
servicemembers.
    To date, the program has placed approximately 1,800 servicemembers 
across more than 100 different Federal employers and sub-components. 
The program currently has 390 active internship placements.

The Veterans Employment Initiative (VEI)
    The VEI, created by Executive Order 13518, aims to aggressively 
enhance recruitment strategies and promote employment opportunities, 
which will lead to an increase in the number of Veterans in the Federal 
Government. DoD is a strategic partner on the Steering Committee for 
this initiative, along with the OPM, VA, DOL, and Department of 
Homeland Security (DHS). The Order also established an interagency 
Council on Veterans Employment that advises the President and the 
Director of OPM on the initiative. The Council serves as a national 
forum to promote Veterans' employment opportunities in the Executive 
Branch and develops performance measures to assess the effectiveness of 
the VEI. This led DoD to implement an agency-specific DoD Veterans 
Strategic Plan, which includes performance measures and expected 
outcomes. Agencies covered by the VEI have established Veterans 
Employment Program Offices or designated a full-time staff person 
dedicated to providing employment services to Veterans. The DoD 
Veterans Employment Program Office assists Veterans with navigating the 
application process in their search for employment. Veterans and the 
public may also access the VEI's helpful Web site at 
www.fedshirevets.gov.

Education and Employment Initiative (E2I)
    Contributing factors to unemployment among wounded warriors include 
the lack of a focused employment, educational, and rehabilitation 
process that engages servicemembers as soon as they begin treatment at 
a medical treatment facility (MTF), as well as a lack of qualified 
career counselors who can administer career assessments and match 
servicemembers to careers. DoD, in collaboration with VA, DOL, and OPM, 
is developing E2I to address these shortfalls. E2I will leverage best 
practices and the good work already being done from existing employment 
and training initiatives in both the Federal and private sectors. The 
first phase is a tiered pilot program that launched in May at two 
locations.
    The goal of the E2I pilot is to engage servicemembers early in 
their recovery to identify the skills they have, the skills they need, 
and the employment opportunities where those skills can be matched and 
put to good use. The E2I process will begin within 30-90 days of a 
recovering servicemember (RSM) arriving at a MTF, taking advantage of a 
recovery time that averages 311 days but can be as long as 5 years. 
Once they are ready to begin the E2I process, all applicants will be 
administered a comprehensive skills assessment to include understanding 
their current disability, current MOS experience, career desires, 
education and training background, and special accommodations that may 
be required for a particular type of position. A highly trained career 
and vocation counselor who has extensive knowledge of the issues facing 
wounded warriors will provide this assessment.
    The E2I counselor will work with the RSM from the initial stages of 
creating an individual development plan goal setting, course selection 
or education requirements, through the completion of training/
certification to return to duty or alternate job placement. A Mentor 
and Coach will be assigned to all E2I applicants at the beginning of 
the process to provide personalized assistance and guidance throughout 
the E2I process from recruitment at the MTF into the program, through 
placement in their new MOS or chosen career.
    Our plan is to evaluate the E2I program over the next 12 to 18 
months and refine the E2I process with new ideas and best practices. 
Once this evaluation is complete, our plan is to continue our E2I roll-
out, which will include partnering with OPM, VA and DOL to ensure we 
have standardized practices and comprehensive handoffs as the RSM 
leaves the responsibility of the DoD.

CLOSING
    The measure of a successful transition does not focus solely on 
TAP, but rather is shared with military leadership at every level 
within the command structure and the degree of personal involvement by 
the servicemember and his or her family. We must continue to find new 
ways to not only reach our servicemembers and provide useful 
information to them, but also strive to ensure they are armed and 
prepared to address all the various challenges and opportunities in 
their transition to civilian life. It is through their success that we 
measure ours and continually look for better ways to provide the help 
they need.
    In summary, the end-state for the enhanced TAP for the 21st Century 
by DoD, DOL, and the VA will consist of a population of servicemembers 
who have the knowledge, skills, and abilities to empower themselves to 
make informed career decisions, be competitive in the global workforce 
and become positive contributors to their community as they transition 
from the military to civilian life.
    Mr. Chairman, this concludes my statement. On behalf of the men and 
women in the military today and their families, I thank you and the 
members of this Committee for your steadfast support.

                                 <F-dash>
 Prepared Statement of Hon. Raymond M. Jefferson, Assistant Secretary 
for Veterans' Employment and Training Service, U.S. Department of Labor

    Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee:
    Thank you for the opportunity to appear as a witness before the 
Subcommittee and speak to you on the Transition Assistance Program 
employment workshop, more commonly referred to as TAP.
    VETS proudly serves Veterans and transitioning servicemembers by 
providing resources and expertise to assist and prepare them to obtain 
meaningful careers, maximize their employment opportunities and protect 
their employment rights. We do that through four major programs that 
are an integral part of Secretary Solis's vision of
``Good Jobs for Everyone.''
    <bullet>  The Jobs for Veterans State Grants (JVSG);
    <bullet>  The Transition Assistance Program Employment Workshops 
(TAP);
    <bullet>  The Homeless Veterans' Reintegration Program (HVRP); and
    <bullet>  The Uniformed Services Employment and Reemployment Rights 
Act (USERRA).

Overview of the TAP Program
    TAP is an interagency program to help returning servicemembers 
transition back into civilian life. TAP consists of five components and 
is delivered in partnership by DOL, the Department of Defense (DoD), 
Department of Veterans' Affairs (VA), and Department of Homeland 
Security. The five components include:

    1.  Pre-separation counseling (3 hours)--this is mandatory for all 
transitioning servicemembers and is provided by the military services;
    2.  TAP employment workshops (2\1/2\ days)--these are voluntary on 
the part of the transitioning servicemember and are administered 
through DOL and its State partners;
    3.  VA benefits briefing (4 hours)--these briefings are also 
voluntary and administered by the VA; and
    4.  Disabled Transition Assistance Program (DTAP) (2 hours)--also 
voluntary and administered by the VA.
    5.  One-on-One Coaching--this is a follow-up to the four components 
outlined above.

    DOL began providing TAP employment workshops in 1991, pursuant to 
section 502 of the National Defense Authorization Act for Fiscal Year 
1991 (P.L. 101-510), and, to date, we have provided employment and job 
training assistance and other transitional services to over 2\1/2\ 
million separating and retiring servicemembers and their spouses.
    We also started providing employment workshops at overseas military 
institutions pursuant to section 309 of the Veterans Benefits Act of 
2003 (P.L. 108-183). Today, so that we can better serve Guard and 
Reserve units, we've made the commitment to provide employment 
workshops whenever requested, to include those returning from 
mobilization. We are currently conducting TAP employment workshops at 
50 sites overseas including Germany, Belgium, the Azores, Japan, Italy, 
Korea, Guam, the United Kingdom, Turkey, and Bahrain.
    Our mission is to provide TAP at every location requested by the 
Armed Services, including National Guard and Reserve Components. Last 
year, nearly 130,000 transitioning servicemembers and spouses attended 
a TAP employment workshop given at one of 272 locations worldwide.

Employment Workshop Overview
    DOL is authorized by Chapter 58 of title 10, U.S. Code, to assist 
DoD and VA in providing transition assistance services to separating 
servicemembers and their spouses. The role of VETS in this effort is to 
conduct employment workshops based on projections made by each of the 
armed services and the Department of Homeland Security for the U.S. 
Coast Guard. DOL-funded Disabled Veterans' Outreach Program (DVOP) 
specialists and Local Veterans' Employment Representatives (LVER) lead 
many employment workshops that take place in the United States. In some 
cases, due to the distances from State employment offices to the 
military installations, and to assist with the rapid growth of the 
program, contract facilitators were added in early Fiscal Year (FY) 
1992 and Federal staff in FY 1996. In overseas locations, contract 
facilitators lead all workshops.
    DOL's TAP employment workshop is a comprehensive 2\1/2\ day session 
where participants learn about job search techniques, career decision-
making processes and obtain information on current occupational and 
labor market conditions. Practical exercises are conducted in resume 
writing and interviewing techniques. Participants are also provided an 
evaluation of their employability relative to the job market and 
receive information on the most current Veterans' benefits. Current 
components of the employment workshop include the following: career 
self-assessment, resume development, job search and interview 
techniques, U.S. labor market information, civilian workplace 
requirements and documentation of military skills.
    The current workshop also explains the additional services 
available at the over 3,000 DOL One-Stop Career Centers and the value 
of the workforce investment system. One-Stop Career Centers help 
provide the support Veterans need to be successful and competitive in 
today's workforce and, this past program year, served over 1.8 million 
Veterans. VETS partners with the Employment and Training Administration 
(ETA) to increase Veterans' awareness of, access to, and use of the 
One-Stop service delivery system including ETA's suite of online 
electronic tools.
    To maintain quality of service delivery and ensure uniformity 
between locations, all workshops use a common workbook and standard 
program of instruction. In addition, all facilitators--whether DVOP/
LVER, Federal staff, or contractors--are trained and certified by the 
National Veterans' Training Institute (NVTI). In the future, VETS will 
transition to having all facilitation done by contract facilitators, 
allowing DVOPs to focus on their core roles and responsibilities.

The Transformation and Redesign of the TAP Employment Workshop
    Since its inception, the TAP employment workshop has been a 
valuable tool for servicemembers transitioning into the civilian 
workforce. As times change, we believe it is important to ensure that 
the approach and content stays current with emerging best practices. It 
is also critical that the program meets any changing needs of our 
transitioning servicemembers, like those returning home from Iraq and 
Afghanistan during these challenging economic times. Therefore, in 
order to bring the best possible program and services to our 
servicemembers and their spouses, VETS is undertaking a redesign of the 
workshop that will incorporate the latest techniques and best practices 
that have been identified over the past two decades.
    We have identified six major opportunities for improving the 
current employment workshop and are in the process of completely 
redesigning and transforming it. We are creating experientially-taught, 
effective, enduring solutions for a successful transition from military 
to civilian life and employment.
    The first improvement opportunity we have identified is that the 
current employment workshop is neither customized to participants' 
needs nor segmented according to their readiness for employment. There 
is no assessment of individuals prior to them attending the course. 
Simply put, it's ``one size fits all.'' For example, in today's 
workshop, servicemembers of all skill sets and experiences attend the 
same workshop--in this situation, we are not effectively engaging 
varying readiness levels. The solution to this dilemma is ``pre-work.'' 
The redesign will assess each individual's readiness for employment, 
and their interests, before they attend the workshop. The pre-work 
results will then be used to assign individuals to one of three 
employment readiness levels: (1) high; (2) moderate; or (3) entry-
level. When a servicemember attends TAP, he or she will do so with a 
cohort having the same readiness level, and the material will be 
tailored to that level. This is a completely new addition to the 
employment workshop.
    The second improvement opportunity we have identified is that the 
content for the employment workshop is outdated--we have not done a 
significant content update in 19 years. Therefore, the transformation 
and redesign will bring in best practice content in the area of career 
transition. The new content will focus on helping participants develop 
the vision, strategy, and tactics for their careers. Vision involves 
determining the life they want, strategy involves creating their 
roadmap for getting there, and tactics are the actions and steps 
they'll be using along the journey. There will be three versions of the 
content--one for each level of employment readiness. The new, best-
practice content will cover topics such as the following:

    <bullet>  Life and career planning;
    <bullet>  Stress reduction techniques;
    <bullet>  Mental resiliency training;
    <bullet>  Transitioning from a military to a civilian work 
environment and culture
    <bullet>  Peer support techniques;
    <bullet>  Networking;
    <bullet>  Storytelling (how to determine and communicate one's 
value proposition)
    <bullet>  Entrepreneurship; and
    <bullet>  Federal Government employment.

    TAP will continue to cover the traditional topics like resume 
writing, interviewing, and dressing for success. A distinctive element 
of the new employment workshop is that each participant will create an 
Individual Transition Plan (ITP)--encompassing his/her vision, strategy 
and tactics--which will serve as the individual's roadmap to meaningful 
and successful career opportunities. This is a completely new addition 
to the employment workshop.
    The third improvement opportunity we have identified is that, 
presently, TAP is facilitated by a mixed cadre with different skill 
levels and training (e.g. contractors, VETS Federal staff, State 
Disabled Veteran Outreach Program specialists, and Local Veterans 
Employment Representatives). Our solution is to employ experienced, 
skilled contract facilitators trained to standards developed as part of 
the redesign. They will provide interactive facilitation that is based 
on adult learning principles. A major difference in the new employment 
workshop will be the emphasis on experiential learning--``learning by 
doing''--as opposed to the current reliance on PowerPoint slides. Also, 
by using contract facilitators, we can implement changes more quickly 
and will have better accountability of their performance. This is a new 
approach to content delivery.
    The fourth improvement opportunity we have identified is that, with 
the current model, there are constraints on access to the program, who 
can attend, and refresher training. The solution to this is an online, 
e-learning platform--a ``virtual'' TAP. The redesign will include an 
online, e-learning platform that will contain the entire TAP workshop 
in an engaging, dramatized format that serves as a comprehensive 
resource for all servicemembers, Veterans, Wounded Warriors, spouses, 
Guard and Reservists. Having an online platform will allow these 
communities continual and unlimited access to all of the content 
provided, 24 hours a day, 7 days a week. The online platform will be a 
primary portal to access entrepreneurship training, resources and 
support from the Small Business Administration (SBA), and other 
sources. Furthermore, this solution will allow us to receive feedback 
from online users and track how many there are. The online, e-learning 
content for the employment workshop will also be available in Spanish. 
This is a completely new addition to the employment workshop.
    The fifth improvement opportunity we have identified is that there 
are no follow-up services for participants to reinforce and embed what 
they've learned. When a transitioning servicemember or spouse attends 
the employment workshop today, they leave with whatever they've 
absorbed in those 2\1/2\ days. Reinforcement of learning is a well-
understood principle of adult learning. Our solution to this is what we 
call ``After-TAP Support.'' In the redesigned workshop, participants 
will receive customized coaching by phone or online for 60 days after 
they attend the workshop. This will be ``live'' person-to-person 
contact and will focus primarily on assisting the participants with 
implementing, ``pressure-testing'' (i.e., comparing the written plan 
with the participants' actual desires) and revising their Individual 
Transition Plans. It will also incorporate peer support techniques. 
This is a completely new addition to the employment workshop.
    Finally, the sixth improvement opportunity we have identified is 
that the employment workshop has no performance metrics to evaluate its 
effectiveness. Over the past 19 years, about 2\1/2\ million people have 
gone through the workshop. However, there is no repository of data 
measuring the program's effectiveness. Therefore, the redesign will 
include performance metrics and gather evaluation input from TAP 
participants at the following three ``moments of truth'':

    1.  At the conclusion of the TAP Employment Workshop--attendees 
will evaluate the delivery, content, approach, resources, and setting;
    2.  During the job search (when attendees are actually applying 
what they've learned)--they'll evaluate the relevancy and effectiveness 
of the workshop's content and approach; and
    3.  After becoming employed--attendees will be asked how useful the 
workshop was in helping them to obtain a job or career opportunity, how 
rapidly did it help them assimilate into the work culture of their new 
organization, and did the program help them to quickly become positive 
contributors to their organization.

    VETS is excited about the future of this program. The request for 
proposals for this redesign has been released and proposals were due on 
May 27th. Our goal is to have the new workshop in place by Veterans' 
Day 2011.

FY 2012 Budget Request
    In FY 2012, VETS requests that TAP be funded at $9,000,000, 
renewing our FY 2011 request to fund this as a separate activity. This 
is $2,000,000 above the level for FY 2010. VETS anticipates increased 
demand for TAP employment workshops because of our participation in 
DoD's Yellow Ribbon Reintegration Program and our commitment to provide 
workshops for retiring Reserve and National Guard members, which 
represent two populations not fully supported in previous years.
    This funding level helps servicemembers and their spouses make the 
initial transition from military service to the civilian workplace more 
seamlessly, effectively, efficiently and with less difficulty.
    Mr. Chairman, you asked in your invitation letter for the status of 
the contract for the National Veterans' Training Institute. The request 
for proposals closed on April 21, 2011, and we are currently evaluating 
the submitted proposals. We plan to make an award by mid-June 2011.
    You also asked about class sizes of the employment workshop at Camp 
LeJeune, NC. We have established a goal of 24 participants per 
employment workshop. Upon occasion, due to mission requirements and 
facility availability, this goal is exceeded. We will continue working 
with DoD to prevent the issue of excessive class size from arising and 
address it when it does.

Conclusion
    Chairman Stutzman, Ranking Member Braley, and Distinguished Members 
of the Subcommittee, I reaffirm my commitment to work closely with you, 
the outstanding team at VETS, and our partners and stakeholders to 
provide Veterans and transitioning servicemembers the best possible 
services and programs. Our success will be measured by the impact our 
programs have on helping our Veterans find and keep good jobs in 
today's modern economy.
    Thank you again for your unwavering commitment to Veterans and for 
the support that you've been providing to us. I appreciate the 
opportunity to testify before you today and look forward to answering 
your questions.

                                 <F-dash>
            Statement of Michael Dakduk, Executive Director,
                      Student Veterans of America
Chairman Stutzman, and Ranking Member Braley,

    Thank you for giving Student Veterans of America the opportunity to 
comment on the Transition Assistance Program and the VetSuccess on 
Campus Program. These two programs are both essential parts of the 
transition from the military to civilian life, and it is essential that 
they be continually assessed by the Congress to ensure that they are 
meeting the needs of our Nation's veterans.

Transition Assistance Program
    We have enjoyed working with the Departments of Labor, VA, and 
Defense in overhauling TAP, and are looking forward to seeing the final 
product of the new version as it is rolled out in the coming months. As 
we have emphasized to all of the stakeholders, we feel strongly that 
education assessment and benefits awareness be critical components of 
the new TAP Program. It is not enough to simply tell a veteran what 
benefits are available. If they express interest in higher education, 
why not sign them up on the spot? The timeline for the expiration of 
their benefits begins as soon as they are discharged regardless of 
whether or not they sign up, so for the vast majority of veterans there 
is no hesitancy to enroll in the Post-9/11 GI Bill.
    It is essential that TAP be geographically linked to where a 
veteran is going, not where they are being discharged from. Most TAP 
programs only talk about local VA and DOL resources, but there is no 
one-on-one counseling as to what will be available when they return 
home, or what they are interested in when they get there. It is 
essential that the resources in the area provide personal contact 
information to the veteran who is going there, and they should also 
have the veteran's information so they can contact him or her when they 
get there. We are under the impression that this will be a part of the 
new TAP Program, and we hope that the Congress will continue to require 
it.
    We strongly believe that education should become part of a 
servicemember's career long before TAP, and we hope that DoD will 
continue to explore opportunities for servicemembers, especially junior 
enlisted and NCOs, to have the opportunity to earn higher education 
credits prior to making the decision to transition. However, we do 
recognize that with the high operational tempo our military is 
currently facing, it will be some time before the same kind of 
education opportunities that our officers can take advantage of are 
made available to the enlisted force. That does not mean, however, that 
our enlisted force is not college material, and we hope that this 
Committee as well as the HASC will encourage DoD to explore these 
options for all servicemembers so as to dramatically reduce the amount 
of time a servicemember must spend in college following discharge 
before taking on more responsibility in the civilian workforce.
    In the meantime, we believe that TAP should begin as soon as 
possible for all servicemembers, and that over the course of the year 
before someone transitions, they should be able to take advantage of 
these resources more than once. This is especially true for those who 
will be entering higher education following discharge. The college 
application process must begin at least 6 months before discharge, with 
the servicemember preparing for and taking the SATs or other required 
exams, etc. Therefore, it is essential that TAP offer some kind of 
tangible education component that allows servicemembers to take the 
time to prepare for these exams if they need, as well as having the 
resources to teach them on base.
    We hope that this will dramatically increase the number of veterans 
going directly from their discharge facility to a college campus, where 
they can be part of a larger academic conversation in a supportive 
environment, thus more effectively acclimating them to the civilian 
world.

VetSuccess on Campus Program
    The VetSuccess on Campus Program is one that SVA is very supportive 
of, and hopes that the Congress will continue to fund and expand it. 
One of the most important parts of this is a full or part-time VA 
benefits counselor at the participating university that can speak 
comprehensively about what is available to student veterans. This is 
important because many universities are not able to afford full-time 
veteran coordinators, and some do not even have full time certifying 
officials.
    It is for this reason that we feel that the VetSuccess on Campus 
Program is so important. We know that in these tough economic times, 
many schools are struggling to maintain highly qualified support staff. 
Without further requirements from the VA, some schools are reducing 
their veteran support staff down to the one required person to handle 
growing student veteran populations, and this is leaving many questions 
unanswered and likely contributes to veterans dropping out of school 
and feeling unwelcome. The more that VA-trained and accountable 
personnel can be interacting daily with student veterans, the more 
likely these men and women are to finish school and continue 
succeeding.
    We hope that the Congress will continue to work with the VA to 
place these centers where they are most needed around the country. We 
would very much like to read of the successes and challenges of this 
program at each of the 9 pilot locations funded thus far, and we hope 
that this honorable Subcommittee will request and then publish 
statistics and anecdotal best-practices so that other schools may 
learn. Ultimately, we feel that this program is the best way for the VA 
to see firsthand what we have known for years: not all schools are 
ready for such a large increase in their veteran populations. In order 
to enhance this readiness, the VA and the Congress must step in to 
provide resources to schools while at the same time holding schools 
accountable for their student veteran's performance. VetSuccess on 
Campus is one such way that the VA can do that, especially at a time 
when many schools are cutting their budgets.
    SVA is very interested in continuing to work with the VA to offer 
input as to where these sites should be located in the future. It is 
important that proper metrics are used to determine what size of a 
population is required to justify this kind of presence. Additionally, 
we hope that in placing these centers on campus, the VA will be able to 
offer some kind of guidance, if not outright requirements, for how much 
staff is needed to service each size of student veteran population. It 
is unthinkable that 10 years into these wars, some schools are still 
only funding a part-time employee to serve hundreds if not thousands of 
student veterans with no repercussions. The VetSuccess on Campus 
program offers a perfect medium to assess these needs and offer more 
concrete guidance to schools. We look forward to working with this 
Committee and the VA on this issue.
    Finally, we would be remiss if we did once again mention the fact 
that there is no Congressional or regulatory requirement for the VA to 
track the graduation rates of the Post-9/11 GI Bill. At this time, the 
VA measures only consumption: how many veterans are using the Post-9/11 
GI Bill, and how much it is costing. There is no requirement or 
mechanism for the VA to tell the Congress, schools, or the American 
people how well their tax dollars are being spent, and this is 
unacceptable. There must be a way for the VA and the Department of 
Education to reconcile their records to show what degrees have been 
paid for, in-full or in-part, by the Post-9/11 GI Bill. This is 
essential to determine how well our veterans are being supported, 
performing academically, and ultimately if this is money that has been 
well-spent. We hope that this honorable Committee will agree with us 
and take steps to find out this important information.

Conclusion
    These two programs are essential for the proper and healthy 
transition of our Nation's heroes from the uniform to the classroom and 
beyond. TAP is currently receiving an overhaul, and we hope that it 
will reflect the reality that higher education is almost universally 
required for well-paying jobs in this economy, and thus encourages 
veterans to use their hard-earned benefits. VetSuccess on Campus 
represents a fantastic opportunity for the VA to show other schools 
what veteran's support should look like, and we hope that these lessons 
will be documented and publically available to learn from. We also hope 
that the Congress will continue to fund this program so that highly-
trained and accountable persons are helping our next generation of 
leaders succeed at as many colleges and universities as possible.

Very Respectfully Submitted.

                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                       June 2, 2011

Ms. Christina M. Roof
National Acting Legislative Director
AMVETS
4647 Forbes Boulevard
Lanham, MD 20706-4380

Dear Ms. Roof:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Hearing on 
Transition Assistance Program and VetSuccess on Campus on June 2, 2011. 
Please answer the enclosed hearing questions by no later than Thursday, 
July 14, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-9756.

            Sincerely,

                                                    Bruce L. Braley
                                                     Ranking Member

JL/ot

                               __________
           HVAC Questions and AMVETS Responses for the Record
                 Subject: TAP and VetSuccess on Campus
                         Hearing: June 2, 2011

    Question 1: What is the average rate of attendance of each branch?

    Answer: Due to the fact that this is not currently tracked by all 
of the branches it is not possible for me to supply you with an 
accurate number. I am aware of several private sector studies that have 
sought to address this issue, however given the fact that DoD is only 
partly involved with the capability to accurately track this data; I 
believe much of that data to be speculative as well. DoD must partner 
with VA and DOL to start tracking attendance and developing metrics to 
accurately reflect the success and shortfalls of the classes.

    Question 2: Who bears the responsibility of informing employers of 
where to find and hire vets?

    Answer: There is no single person or agency exclusively tasked with 
informing employers where veterans can be located for employment. 
However, there are several programs within the department of Veterans 
Affairs who are responsible for employment and training services of 
veterans. The DVOPs and LVERS, as well as DOL's VETS program are all 
responsible for assisting veterans with gaining substantial employment. 
However, AMVETS believes much of the current unemployment problems stem 
from the lack of training or assistance with sustaining quality 
employment. We believe this matter should be addressed immediately in 
an effort to reduce the astounding unemployment rates within our 
veterans' communities.

    Question 3: How can we increase spouse participation in TAP?

    Answer: Currently, the TAP program is not setup to conduct outreach 
or provide appropriate TAP classes to eligible spouses. I believe it 
would be a safe assumption to say that most eligible spouses are 
probably not aware they are even eligible or have ever been shown the 
value of a well instructed TAP class. Improvements in outreach and 
education need to be done to increase eligible spouse participation.

    Question 4: Do you have any views on overseas TAP?

    Answer: Regardless of location, AMVETS believes that every TAP 
class should be equal in quality and content.

    Question 5: In your written testimony you stated that employers are 
unable to translate a veterans' military experience into civilian 
equivalent. With the current initiatives being implemented why are 
employers still unable to understand and translate veterans' military 
experience into civilian equivalent?

    Answer: Unfortunately, we believe it is not only the employers, but 
veterans as well, who are having trouble qualifying a former MOS and 
military experience to that of a private sector position. AMVETS 
believes this is an issue that needs to be addressed properly and 
thoroughly in the servicemember's TAP class before their release from 
DoD.
                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                       June 2, 2011

BGEN Robert F. Hedelund
Director, Marine and Family Programs
United States Marine Corps
U.S. Department of Defense
3280 Russell Road
Quantico VA 22134

Dear BGEN Hedelund:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Hearing on 
Transition Assistance Program and VetSuccess on Campus on June 2, 2011. 
Please answer the enclosed hearing questions by no later than Thursday, 
July 14, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-9756.

            Sincerely,

                                                    Bruce L. Braley
                                                     Ranking Member

JL/ot
                               __________
          Questions for the Record from the House Committee on
        Veterans' Affairs, Subcommittee on Economic Opportunity,
   Hearing on Transition Assistance Program and VetSuccess on Campus

    Question 1: What is the current rate of participation in TAMP, TAP 
and DTAP for Marines?

    Answer: Based on the FY 2010 Marine Corps Transition Assistance 
Program Annual Report,

    <bullet>  The total number of active-duty Marines receiving pre-
separation counseling = 28,690;
    <bullet>  The total number of Reserve Marines receiving pre-
separation counseling = 2,432;
    <bullet>  The total number of Marine Spouses receiving pre-
separation counseling = 446 (representation from all Services);
    <bullet>  The total number of servicemembers receiving Disabled 
Transition Assistance Program (DTAP) = 12,044 (representation from all 
Services); and
    <bullet>  The Total number of Marines receiving DOL TAP Employment 
Workshop = 28,335.

    Question 2: What type of partners, affiliates and contractors are 
the Marines looking to add to TAP?

    Answer: Currently, the Marine Corps is working with several 
external transitional career coaching/counseling contractors to assist 
with Senior and Executive Level Transition assistance programs. We are 
also looking for additional partners with educational institutions, 
colleges, universities, institutions; and technical and vocational 
schools.

    Question 3: At how many locations is TAP available for the Marines?

    Answer: 17 Marine Corps Installations.

    Question 4: How often do spouses or other family members attend the 
mandatory TAP workshops?

    Answer: For FY 2010, 430 spouses attended DOL TAP Workshop (spouse 
representation from all Services). Spouses are strongly encouraged to 
attend all transition assistance programs and services, including the:

    1.  Department of Defense's (DoD's) Pre-Separation Counseling 
Checklist;
    2.  Department of Labor (DOL's) Transition Assistance Program (TAP) 
Employment Workshop;
    3.  Department of Veterans Affairs' (VA's) Benefits briefing;
    4.  Marine Forces Reserve's (MARFORRES) service obligations and 
benefits briefing; and the
    5.  Wounded Warrior Regiment's (WWR) Disabled Transition Assistance 
Program (DTAP) briefing.

    Question 4(a): What are you doing to encourage spouses to attend 
TAP workshops?

    Answer: Local Family Member Employment Assistance Program (FMEAP) 
offices and Marine Corps TAMP offices recommend that spouses attend all 
TAP-related programs and services.

    Question 5: Can you clarify what the difference is between the 
Transition Assistance Program and the Transition Assistance Management 
Program?

    Answer: The Transition Assistance Program (TAP) is an employment 
workshop conducted by the Department of Labor (DOL). The Transition 
Assistance Management Program (TAMP) encompasses all aspects of 
transition assistance to include DoD's pre-separation counseling; DOL's 
TAP Employment Workshop; the VA's Veterans Benefits Brief; the Wounded 
Warrror Regiment's (WWRs) Disabled Transition Assistance (DTAP) 
briefing; and one-on-one counseling sessions culminating in completed 
and customized Individual Transition Plans (ITPs) for separating and 
retiring Marines.
                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                       June 2, 2011

Mr. Thomas Pamperin
Deputy Under Secretary for Disability Assistance
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Pamperin:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Hearing on 
Transition Assistance Program and VetSuccess on Campus on June 2, 2011. 
Please answer the enclosed hearing questions by no later than Thursday, 
July 14, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-9756.

            Sincerely,

                                                    Bruce L. Braley
                                                     Ranking Member

JL/ot
                               __________
             The Honorable Bruce L. Braley, Ranking Member,
                 House Committee on Veterans' Affairs,
                 Subcommittee on Economic Opportunity,

Hearing on Transition Assistance Program and VetSuccess on Campus, June 
                                2, 2011
    Question 1: Since VA is looking at TAP, are there any coming 
changes to the overseas TAP program?

    Response: VA's Transition Assistance Program (TAP) is currently 
undergoing a reengineering process. By the end of fiscal year 2011, TAP 
will provide a progressive benefits presentation, standardized benefits 
information package, a new survey instrument, and a state-of-the-art 
Web-based benefits course. VA is also issuing an improved Overseas 
Military Services Coordinator (OMSC) training syllabus and extending 
the OMSC tour lengths from 4 to 6 months. OMSC provide TAP services, 
benefits counseling, and disabled transition assistance briefings to 
separating Servicemembers in the United Kingdom, Germany, Italy, Spain, 
Belgium, Bahrain, Okinawa, Japan and Korea. VA is confident that these 
changes will drive better results. VA is also working with the 
Department of State on requirements and options to pursue a pilot for 
extending tour lengths up to 3 years. Collectively, these important 
changes will improve VA's delivery of benefits information to 
transitioning Servicemembers stationed abroad.

    Question 2: Staff traveled to various VetSucess on Campus sites in 
April. One of the concerns we heard was that the VA had not provided 
any guidance regarding legislative changes to the Post 9/11, in 
particular Public Law 111-377. The VA later informed our staff that 
guidance and additional information on Public Law 111-377 had been sent 
out. Can you tell us why some schools had received the information 
while others had not?

    Response: VA used every available resource to raise awareness about 
the changes made to the Post-9/11 GI Bill by P.L. 111-377. The 
following outreach efforts were taken to proactively inform schools:

    <bullet>  On January 5, a VA press release announcing passage of 
P.L. 111-377 was published;
    <bullet>  The first Post-9/11 GI Bill Facebook update was published 
on January 5, 2011, and the first VBA Facebook update was published on 
January 9, 2011 explaining upcoming changes;
    <bullet>  On January 6, the GI Bill Web site was first updated with 
a news feed that listed pending changes to the Post-9/11 GI Bill by 
effective date;
    <bullet>  On January 7, letters were sent to all institutions of 
higher learning executives, State Approving Agencies, and the American 
Council on Education explaining upcoming changes;
    <bullet>  On February 14, Mr. Keith Wilson, Director, VA Education 
Service, briefed the National Association of State Approving Agencies 
at its Mid-Winter Conference;
    <bullet>  On February 23, Mr. Keith Wilson hosted a webinar for the 
Winter 2011 American Council on Education;
    <bullet>  On March 18, a letter was sent to School Certifying 
Officials (SCOs) explaining new tuition and fee changes and reporting 
requirements. The letter was posted on the GI Bill Web site the same 
day; and
    <bullet>  On June 3, the SCO Handbook detailing enrollment 
certification instructions and reporting requirements under Post-9/11 
GI Bill was released.

    VA continues to proactively reach out to educational institutions 
regarding the impact P.L. 111-377 is having on the Post-9/11 GI Bill. 
Additionally, a VA Education Liaison Representative (ELR) is assigned 
to each State. Schools may contact their assigned ELR to determine 
where to get additional information or to obtain clarification on 
information previously provided.
    VBA is drafting a new policy based on the legislation, and that 
policy is under departmental review. Once final concurrence is 
received, a policy letter and training will be provided to all field 
personnel. Release of the new policy is expected in July 2011.

    Question 3: According to the VA, on May 20 of this year, the 
Vocational Rehabilitation and Employment Service were supposed to 
contact the VetSuccess counselors to discuss changes and formal 
guidance on Public Law 111-377. Can you tell us if this call was made?

    Response: Yes, a special training session was conducted for all 
VetSuccess on Campus Counselors on May 20, 2011, regarding the impact 
of Public Law 111-377 on Chapter 31 participants. The training 
consisted of a review of the language in the law, and included 
scenario-based examples. This call was in addition to prior field 
training provided to the counselors.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                       June 2, 2011

Mr. Philip A. Burdette
Principal Director
Office of Secretary of Defense
Office of Wounded Warrior Care and Transition Policy
4000 Pentagon, Room 5A688A
Washington, DC 20301-4000

Dear Mr. Burdette:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Hearing on 
Transition Assistance Program and VetSuccess on Campus on June 2, 2011. 
Please answer the enclosed hearing questions by no later than Thursday, 
July 14, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-
2034. If you have any questions, please call (202) 225-9756.

            Sincerely,

                                                    Bruce L. Braley
                                                     Ranking Member

JL/ot
                               __________
          Questions for the Record from the House Committee on
        Veterans' Affairs, Subcommittee on Economic Opportunity,
   Hearing on Transition Assistance Program and VetSuccess on Campus

    Question 1: How many people have used the DoD Career Decision 
Toolkit and what has been the feedback?

    Answer: The Department initially rolled out 180,000 kits in 
September 2010. Since then, we have processed an additional 700-reorder 
requests totaling over 120,000 toolkits. We had additional demand from 
the Reserve Component (RC) for Servicemembers who had already 
transitioned, resulting in an order for 100,000 toolkits in CD-ROM 
format. Over 50,000 of these CDs have been shipped to meet demands by 
25 States serving demobilized RC personnel during Yellow Ribbon Events. 
We also provided 500 CD toolkits to the USO in Bagram, Afghanistan, to 
satisfy their request. Arizona State Labor Officials also requested 500 
toolkits for use in the deactivation of National Guard troops serving 
on Border Patrol duties.
    DoD considers the Career Decision Toolkit to have been well-
received by its intended customers based upon the initial rollout and 
subsequent reorder requests, including servicemembers and those who 
support them in their career decisions. A further illustration of 
success is that it has been publically endorsed by Department of Labor 
(DOL)/Veterans' Employment and Training Service (VETS), National Guard 
Bureau (NGB) and Employer Support of the Guard and Reserve (ESGR) 
senior leaders.

    Question 2: Does DoD believe that TAP should be mandatory?

    Answer: Yes, courses and materials to help servicemembers and 
families transition should be mandatory. Much like the Department 
prepares recruits and new officers for life within the military, the 
Department must prepare them for life after they separate or retire 
from the military.
    Currently, the pre-separation counseling portion of the Transition 
Assistance Program (TAP) is already mandatory for all separating 
servicemembers. Department of Defense (DoD) counselors make every 
effort to encourage transitioning servicemembers to participate in the 
voluntary components of TAP; which are the VA's Benefits Briefing and 
Disabled TAP, and DOL's Employment Workshop. Ultimately, the Department 
wants TAP to be a resource that servicemembers want to use, not a 
requirement they feel compelled to attend.

    Question 3: 
Is overseas TAP meeting the needs of our separating servicemembers?

    Answer: The Department does not currently have Department-wide 
metrics measuring overall satisfaction with TAP classes overseas; 
however, we are looking at specific options to best measure how 
overseas TAP classes are meeting the needs of separating 
servicemembers.
    Servicemembers overseas receive the same Transition Assistance 
Program services as those in the United States, but we realize that 
those stationed overseas may face additional challenges. To address 
these challenges, we have added items such as the Career Decision 
Toolkit on the TurboTap.org Web site for information and resources to 
better meet their transition needs. Servicemembers and their families 
can access transition information and resources anytime, anywhere from 
this site. Additionally, they can also participate in weekly scheduled 
web seminars, or ``webinars,'' on such topics as Building Better 
Resumes, Financial Planning for Career Change, Decoding Military Skills 
for Civilian Employers and Acing the Interview, to further enhance 
their transition experience. Since its launch in March, 2011, hundreds 
of servicemembers in Iraq and Afghanistan, as well as members at 
overseas installations in Europe and the Pacific have participated in 
the webinars.

    Question 4: Is DoD working to increase spouse participation in TAP?

    Answer: Yes, the Department is making a concerted effort to 
increase spouse participation. Spouses are encouraged to attend pre-
separation counseling as well as the other Transition Assistance 
Program (TAP) components offered by the Departments of Labor (DOL) and 
Veterans Affairs (VA). This encouragement has been successful and in 
Fiscal Year (FY) 2010, over 30,000 spouses attended one or more TAP 
sessions, to include pre-separation counseling, the DOL Employment 
Workshop, VA Benefits Briefing, relocation assistance, personal 
financial management, or transition and employment assistance. Through 
the first two quarters of FY 2011, more than 20,000 spouses have 
attended similar TAP sessions. It is understood that it may not always 
be possible for spouses to attend TAP sessions and they are encouraged 
to use the Career Decision Toolkit on the TurboTAP.org Web site for 
information and resources to support their transition needs. Spouses 
can also participate in weekly web seminars, or ``webinars,'' that 
address various transition topics such as Building Better Resumes, 
Financial Planning for Career Change and Acing the Interview, to 
further enhance their transition experience.

    Question 5: Are servicemembers encouraged to get copies of their 
medical records for future claims?

    Answer: Yes, we encourage servicemembers to get copies of their 
medical records. We also suggest and encourage servicemembers to start 
the process of filing the appropriate paperwork, prior to retirement or 
separation, with the Department of Veterans Affairs (VA) to obtain all 
VA benefits to which they may be entitled. The gathering of records and 
paperwork is a practical approach to help our servicemembers to have 
the necessary documents prepared for any transition event whether it is 
transfer, retirement or separation.

                                 <F-dash>
                                     Committee on Veterans' Affairs
                                                    Washington, DC.
                                                       June 2, 2011

The Honorable Raymond M. Jefferson
Assistant Secretary, Veterans' Employment and Training Service
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

Dear Secretary Jefferson:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity Hearing on 
Transition Assistance Program and VetSuccess on Campus on June 2, 2011. 
Please answer the enclosed hearing questions by no later than Thursday, 
July 14, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-9756.

            Sincerely,

                                                    Bruce L. Braley
                                                     Ranking Member

JL/ot
                               __________
 Veterans' Employment and Training Service, U.S. Department of Labor, 
    Questions for the Record, House Committee on Veterans' Affairs,
  Subcommittee on Economic Opportunity Hearing, Transition Assistance 
         Program and VetSuccess on Campus Program, June 2, 2011

    Question 1: In how many locations did DOL provide TAP last year for 
Reserve Component forces?

    Response: Transition Assistance Program (TAP) eligible Reserve 
Component (RC) forces are able to attend TAP Employment Workshops at 
any of the 272 active-duty sites worldwide. In Fiscal Year (FY) 2010, 
RC forces attended regularly scheduled 2.5-day TAP workshops at 108 of 
these sites. In addition, the U.S. Department of Labor (DOL) Veterans' 
Employment and Training Service (VETS) delivered TAP Employment 
Workshops of varying lengths to RC force units at 33 National Guard 
armories or Reserve Unit locations in FY 2010.

    Question 2: Do Reserve Component forces need a different kind of 
TAP from active-duty forces?

    Response: RC forces do not need a separate TAP Employment Workshop. 
Instead, the primary challenge of providing TAP workshops to RC forces 
is finding ways to increase the availability and accessibility of the 
course content. This challenge is being addressed through the redesign 
of the TAP Employment Workshop. Upon completion, expected later this 
year, the TAP will offer an eLearning platform version of the workshop 
to allow RC participants to review the full course content online at 
their convenience, 24 hours a day, 7 days a week from anywhere in the 
world.

    Question 3: Currently what percentage of DVOP/LVERS have not 
attended NVTI?

    Response: P.L. 109-461 amended 38 U.S.C. 4102A(c) to required all 
Disabled Veterans' Outreach Program Specialists (DVOP) and Local 
Veterans' Employment Representatives (LVER) staff to complete the 
training provided by the National Veterans' Training Institute (NVTI) 
within 3 years of appointment. At the end of FY 2010, approximately 1 
percent (24) of DVOP/LVER staff members had not completed the mandatory 
NVTI training as required by law.
    38 U.S.C. 4102A(c) was further amended by P.L. 111-275, which now 
requires DVOP/LVER staff to complete their NVTI training within 18 
months of appointment. For staff assigned between January 1, 2006 and 
October 12, 2010, NVTI training must be completed by April 13, 2012. 
VETS is working with the States to ensure that all staff complete the 
training and is closely monitoring the number of staff that have not 
yet done so. Below is a breakdown of the percentage of staff required 
by law to complete training in specific NVTI courses that have not done 
so as of July 20, 2011.

        Labor Employment Specialist (LES)--10 percent (152)
        Case Management (CM)--26 percent (232)
        Promoting Partnerships in Employment (PPE)--30 percent (189)

    Question 4: In the fifth improvement opportunity you note that each 
person will have a ``live'' person to person contact. Who will be doing 
the contacting, how many people will be doing it, and what is the 
expected cost?

    Response: The Statement of Work in the Request for Proposal for the 
redesign of the TAP Employment Workshop requires development of an 
After-Training Support module that will provide follow up support for 
participants for 60 days following the workshop. This support will be 
based upon the individual needs of the person seeking assistance, 
including personalized phone and email support, resume and cover letter 
assessment, and interview preparation. In coordination with VETS, the 
selected vendor will also conduct a gap analysis of transition 
assistance support services to ensure a strengthening of support, 
rather than a duplication of effort, to make maximum use of existing 
employment opportunities for Veterans. In addition, the selected vendor 
will develop and recommended annual resource requirements for the 
implementation of the After-Training Support module beyond the life of 
the contract awarded under this solicitation. Because this contract was 
recently awarded, we cannot provide more specific details about the new 
support module at this time. Similarly, expected costs have yet to be 
determined.

    Question 5: What is the best way to help employers find veterans 
for hire?

    Response: As the national focal point for Veterans' employment and 
training services, DOL-VETS is especially situated to help employers 
find Veterans for hire. Our DVOP and LVER staff strive everyday to 
fulfill Secretary's Solis' vision of ``Good Jobs for Everyone'' by 
linking Veterans looking to obtain meaningful careers with employers 
who seek to capitalize on the specialized skills Veterans have to 
offer. To help us facilitate these connections, we recommend employers 
contact VETS staff in the geographic area where they are looking to 
hire, or participate in any of our 100 mega-hiring fairs held 
nationwide. Further information is available at http://www.dol.gov/
vets/aboutvets/contacts/map.htm.
    DVOPs and LVERs also work closely with VA's Vocational 
Rehabilitation and Employment Service to provide comprehensive 
employment services on a national and local level through State 
Workforce Agencies. The VR&E Web site, VetSuccess.gov, receives direct 
job feeds through a Vet Central database that includes vacancies 
announced by the National Association of State Workforce Agencies. 
VetSuccess.gov helps Veterans and employers connect by allowing them to 
post relevant information and search job openings and resumes.

    Question 6: During our Full Committee hearing on June 1, 2011, we 
heard from some of our panelists that there is information overload and 
there should be one database portal for employers. Do you think that 
there should be one database portal for servicemembers and veterans 
that contains employment information? Should this database portal be 
maintained under DOL's or VA's Web site?

    Response: Yes, we believe there should be one database portal for 
employers, servicemembers, and Veterans. DOL, DoD, and VA currently are 
working jointly in the development of an integrated Veterans Employment 
Technology Platform that will provide a primary entry point for 
returning Veterans to find support resources in transitioning to the 
civilian workforce. The Platform will act as a central point of entry 
aimed to reduce the complexity of accessing employment resources and 
with the purpose of improving service to this valuable customer 
segment.

    Question 7: What are some of the efforts that DOL is working on to 
encourage spouses to attend TAP workshops?

    Response: DOL has launched the following efforts to increase spouse 
participation in the TAP Employment Workshop:
A. Collaboration with Department of Defense (DoD) Military Spouse 
        Employment Partnership (MSEP)
    DOL is collaborating with the Department of Defense's Office of 
Military Community and Family Policy, which has oversight of the Spouse 
Education and Career Opportunities Program and the Military Spouse 
Employment Partnership (MSEP). MSEP is a comprehensive employment and 
career partnership that connects corporations with military spouses who 
possess essential 21st Century workforce skills and attributes. Spouse 
Education and Career Opportunities Program counselors identify those 
spouses who are preparing to transition from the military with their 
servicemembers and refer them to the installation transition program 
where they are currently stationed, or to the Transition Assistance 
Program resources online. Once connected to the installation transition 
program, spouses are encouraged to attend the 2\1/2\ day TAP Employment 
Workshop where they will be provided training and education on:

    <bullet>  Resume writing
    <bullet>  Interviewing skills
    <bullet>  Networking
    <bullet>  Job market research and analysis
    <bullet>  Salary negotiation
    <bullet>  Dressing for success

    Spouses are also referred and encouraged to connect with the 
nearest One-Stop Career Center in their new location where they can 
continue to receive employment assistance and connect to available job 
opportunities in their local community.

B.  Pre-Separation Counseling
    The transition process for servicemembers begins when the 
servicemember attends the mandatory DoD component of TAP called ``Pre-
Separation Counseling.'' During this session, servicemembers are also 
informed about the DOL's TAP component, the Employment Workshop. If the 
spouse is not present during the pre-separation counseling session, the 
servicemember is encouraged to bring his/her spouse with them to the 
employment workshop. In addition, we continue to work with DoD and 
other Federal agencies with TAP components to increase awareness about 
the Employment Workshop among transitioning spouses and encourage them 
to attend.

C.  Increase Use of Social Media
    DOL is continuing its collaboration with DoD and the Military 
Services to increase marketing, outreach and awareness via traditional 
means, such as public speaking events, email, word of mouth, and news 
media, as well as increased usage of social media, such as Facebook and 
Twitter, to attract more spouses to participate in the DOL TAP 
Employment Workshop.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
